AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
    OFFICE OF JUVENILE JUSTICE AND
  DELINQUENCY PREVENTION AWARDS TO
           ENOUGH IS ENOUGH
           RESTON, VIRGINIA




        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-30-11-005
              August 2011
This Page Left Intentionally Blank
           AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
               OFFICE OF JUVENILE JUSTICE AND
             DELINQUENCY PREVENTION AWARDS TO
                      ENOUGH IS ENOUGH

                             EXECUTIVE SUMMARY

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
completed an audit of award numbers 2007-JL-FX-K006 ($750,000) and
2009-DD-BX-0093 ($500,000) to Enough is Enough in Reston, Virginia.
Enough is Enough’s mission is to make the internet safer for children and
families by raising public awareness about the dangers of internet
pornography and sexual predators. Enough is Enough’s multi-media
Internet Safety 101 program was released nationally in 2010 to provide
parents, teachers, and law enforcement with training to protect children
from pornography, sexual predators, cyberbullies, and threats related to
social networking sites, online gaming, and mobile devices.

      We conducted this audit to determine whether costs claimed under the
awards were allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the award. Unless
otherwise stated in the report, we applied the Office of Justice Programs
(OJP) Financial Guide (Financial Guide) as our primary criteria. 1

      The audit found that Enough is Enough did not follow standard
accounting practices and did not maintain adequate internal controls to
ensure compliance with grant requirements. For example, at the end of a
uniform reporting period (which may be monthly, quarterly, or annually), a
standard accounting practice is to “lock” the accounting period to prevent
users from recording or modifying financial transactions for that period of
time. Enough is Enough did not always lock its accounting system for past
accounting periods prior to submitting required financial reports, which
impaired its ability to ensure that it submitted accurate financial status
reports, and increased the risk of fraudulent activities going undetected.




       1
          The Financial Guide serves as a reference manual that assists award recipients in
their fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately. OJP requires grantees to abide by the requirements in the OJP Financial
Guide.
      Our audit also found that Enough is Enough charged the two awards
over $800,000 in costs that we consider to be unsupported or unallowable.
These unsupported and unallowable costs included the following:

   •   Labor charges for $378,000 because the payroll documentation did not
       reconcile to the general ledger.

   •   Indirect cost expenditures for $149,000 because Enough is Enough did
       not have an approved indirect cost rate or an adequately documented
       method or formula for calculating indirect costs.

   •   Other direct costs transactions totaling more than $106,000 were
       missing written authorizations, vouchers, receipts, invoices, or a
       consistent methodology for allocating the expense between DOJ
       awards or other Enough is Enough activities such as other awards and
       congressional education efforts.

   •   Drawdowns for $117,000 in excess of general ledger expenditures. 2

   •   Unapproved budget transfers totaling over $46,000.

   •   Unapproved lease payments totaling over $3,300 on 2007-JL-FX-K006.
       The award budget did not include any approval to lease 5 pieces of
       computer equipment with grant funds.

      Our report contains 18 recommendations. We discussed the results of
our audit with Enough is Enough officials and have included their comments
in the report as applicable.




       2
         OJP’s Minimum Cash On Hand Requirements state that recipients should time their
drawdown requests to ensure that federal cash on hand is the minimum needed for
disbursements and reimbursements to be made immediately or within 10 days.

                                           ii
                            TABLE OF CONTENTS
                                                                                Page
INTRODUCTION ....................................................................... 1
    Audit Approach ..................................................................... 2

FINDINGS AND RECOMMENDATIONS....................................... 4
    Reporting ............................................................................. 4
        Financial Status Reports................................................... 5
        Progress Reports ............................................................. 7
    Drawdowns .......................................................................... 9
    Budget Management and Control............................................ 10
    Grant Expenditures ............................................................... 12
        Salary         ................................................................... 13
        Other Direct Costs .......................................................... 18
        Indirect Costs ................................................................ 26
        Accountable Property ...................................................... 29
    Program Income .................................................................. 31
    Recommendations ................................................................ 32

SCHEDULE OF DOLLAR-RELATED FINDINGS .......................... 35

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ...... 36

APPENDIX II - SUMMARY OF TESTING DRAWDOWN REQUESTS
   TO REPORTED GENERAL LEDGER EXPENDITURES ............. 40

APPENDIX III - AUDITEE RESPONSE TO THE DRAFT REPORT 41

APPENDIX IV - OJP RESPONSE TO THE DRAFT REPORT ......... 61

APPENDIX V - NECESSARY TO CLOSE THE REPORT ................ 67
                          INTRODUCTION

      The Office of the Inspector General, Audit Division, has completed an
audit of awards to Enough is Enough located in Reston, VA under the Office
of Juvenile Justice and Delinquency Prevention’s (OJJDP) National Juvenile
Justice Program. The purpose of the National Juvenile Justice Program is to
foster innovations and advancements in juvenile justice and child protection
related practices, as part of OJJDP’s overall effort to support programs that
enhance juvenile justice, child protection, and delinquency prevention.

      Enough is Enough was awarded over $1 million to support an
enhanced version of its Internet Safety 101 program between fiscal years
(FY) 2007 – 2009. The multi-media Internet Safety 101 program was
released nationally in 2010 to provide parents, teachers and law
enforcement with training to protect children from pornography, sexual
predators, cyberbullies, and threats related to social networking sites, online
gaming and mobile devices through a DVD and workbook training kit.
Enough is Enough’s mission is to make the internet safer for children and
families by raising public awareness about the dangers of internet
pornography and sexual predators.

                 Exhibit 1: Summary of Awards Audited

                       Type of
    Awards                              Award Period         Award Amount
                       Award
2007-JL-FX-K006     Discretionary     10/1/2007-9/30/2010              $750,000
2009-DD-BX-0093     Earmark           10/1/2009-9/30/2011              $500,000
Total                                                                $1,250,000
Source: Grants Management System (GMS) award documentation
Audit Approach

      We conducted this audit to determine whether costs claimed under the
awards are allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the awards. To
accomplish this objective, we tested compliance with what we considered the
most important conditions of the awards. Unless otherwise stated in the
report, we used the OJP Financial Guide (Financial Guide) to assess Enough
is Enough’s performance and compliance with award requirements. 1

      Specifically, we tested what we believed to be critical award
requirements necessary to meet the objectives of the audit, including:

   1. Reporting to determine if the required financial status and progress
      reports were submitted timely and accurately reflected award activity;

   2. Drawdowns to determine whether award drawdowns were
      adequately supported and if the awardee was managing receipts in
      accordance with federal requirements;

   3. Budget Management and Control to ensure that the awardee
      appropriately tracked costs to approved budget categories;

   4. Grant Expenditures to determine the accuracy and allowability of
      costs charged to the award;

   5. Contractor Monitoring to ensure compliance with overall financial
      management requirements; and

   6. Program Income to ensure that any program income generated by
      DOJ-funded award activity was used in accordance with the Financial
      Guide.

      The awards did not require matching funds or the monitoring of
subgrantees. Although we reviewed progress reports and interviewed
Enough is Enough officials and employees regarding the overall program
performance supported by the DOJ awards, we concentrated our audit on
Enough is Enough’s financial management. We expanded the scope of our
testing in light of several identified concerns regarding the Enough is


       1
          The Financial Guide serves as a reference manual that assists award recipients in
the fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately. OJP requires grantees to abide by the requirements in the OJP Financial
Guide.

                                             2
Enough’s financial management. Our concerns include that Enough is
Enough: (1) does not require prior authorizations for award expenditures;
(2) uses an unapproved, undocumented methodology for charging indirect
costs; (3) had not finalized a written financial manual; (4) had turnover in
its Director of Operations and Executive Director positions; and (5) had
three employees and a bookkeeper overseeing the financial management of
the awards with inadequate separation of duties. 2 These cross-cutting issues
increase the risk that grant funds could be misused.

      Additionally, while Enough is Enough was not required to have a single
audit, OJP conducted a site visit on September 17, 2009. 3 The OJP grant
manager recommended that Enough is Enough improve its travel
authorization documentation procedures, improve its data collection and
performance measurement, and send key staff members such as the
Director of Operations, Office Manager, and Bookkeeper to New Grantee
Orientation. 4 During our audit, we found that Enough is Enough had not
improved its travel authorization documentation or sent 2 of the 3
recommended employees to New Grantee Orientation. Appendix I contains
additional information on our objective, scope, and methodology.




       2
         Our audit reviewed award expenditures through August 31, 2010. Enough is
Enough did not have a complete, written financial manual until September 2010, and hired
Cordia Partners during our audit to refine its internal processes and improve their
accounting for grants.
       3
          A single audit is intended to provide a cost-effective audit for non-Federal entities
in that one audit is conducted in lieu of multiple audits of individual programs. The single
audit typically is conducted by an organization’s external auditors. According to the Office
of Management and Budget (OMB) Circular A-133, Audits of States, Local Governments and
Non-Profit Organizations, non-federal entities that expend more than $500,000 in a year in
federal awards are required to have a single audit conducted. Enough is Enough did not
expend more than $500,000 in federal funds during any year of the grant.
       4
        New Grantee Orientation is designed to give key staff members a better
understanding of OJP programmatic and administrative requirements.

                                               3
            FINDINGS AND RECOMMENDATIONS

  COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

     Enough is Enough did not follow standard accounting practices or
     maintain adequate internal controls to ensure compliance with
     award requirements. The internal control issues limited our
     ability to reconcile financial status reports and drawdown
     requests to Enough is Enough’s accounting records. Further,
     although all award costs must be supported with adequate
     documentation and allowable under approved budgets, the audit
     identified more than $800,000 in either unallowable or
     unsupported costs. Examples of these costs include: (1) over
     $117,000 in overdrawn funds (2) over $378,000 in unsupported
     salaries; (3) more than $106,000 in unallowable or unsupported
     other direct costs; (4) over $3,300 in unallowable accountable
     property expenditures; and (5) over $149,000 in unsupported
     indirect costs.


Reporting

      The Financial Guide requires that grantees submit both financial and
program progress reports to inform awarding agencies on the status of each
award. Financial Status Reports (FSRs) should detail the actual
expenditures incurred for each quarterly reporting period, while progress
reports should be submitted semiannually and describe the activities,
obstacles, and achievements of the project supported by each award.

      Because accurate and timely FSRs and progress reports are necessary
to ensure that DOJ awarding agencies can effectively monitor grant activities
and expenditures, we reviewed Enough is Enough’s submitted reports for the
two grants under review. As detailed by the following sections, we generally
found that Enough is Enough timely submitted FSRs and progress reports.
However, we found that FSRs did not accurately report grant expenditures
and progress reports over reported program activity.




                                     4
Financial Status Reports

      DOJ awarding agencies monitor the financial performance of each
grant via FSRs. According to the Financial Guide, FSRs should be submitted
within 45 days after the end of each quarterly reporting period. Even when
there have been no outlays of grant funds, a report containing zeroes must
be submitted. Awarding agencies may withhold funds or future awards if
reports are not submitted or are excessively late.

      To verify the timeliness of the FSRs, we tested the last four reports
that Enough is Enough submitted for each audited grant. We compared the
submission date of each report with the date each report was due, and found
that Enough is Enough submitted the tested FSRs on time.

       The Financial Guide also states that the grantee’s general ledger must
support all amounts reported on the FSRs. To verify the accuracy of FSRs,
we reviewed all FSRs completed as of August 2010 for the two awards. In
total, we tested the accuracy of 11 FSRs under award 2007-JL-FX-K006 and
3 FSRs for award 2009-DD-BX-0093. For award 2007-JL-FX-K006, we could
not reconcile the amounts recorded on 8 of the 11 FSRs, and for award
2009-DD-BX-0093 we could not reconcile 2 of the 3 FSRs tested. As shown
by Exhibit 2, these FSR discrepancies ranged from potentially under-
reporting more than $42,000 in expenditures per quarter to potentially over-
reporting more than $22,000 in quarterly financial activity for award 2007-
JL-FX-K006.




                                      5
              Exhibit 2: Summary of Review of FSR Accuracy

                                                  Expenditures
   Report Period           Expenditures            Per General          Difference
    (From - To)             Per FSR ($)            Ledger ($)               ($)
                                 2007-JL-FX-K006
10/1/07 - 12/31/07                       -                       -                  -
1/1/08 - 3/31/08                     5,350                   5,250               (100)
4/1/08 - 6/30/08                    61,877                  39,644            (22,233)
7/1/08 - 9/30/08                    16,879                  59,475             42,596
10/1/08 - 12/31/08                 103,988                 124,513             20,525
1/1/09 - 3/31/09                   111,285                  95,586            (15,699)
4/1/09 - 6/30/09                   103,354                  97,354             (6,000)
7/1/09 - 9/30/09                   113,180                 107,667             (5,513)
10/1/09 - 12/31/09                 111,951                  93,206            (18,745)
1/1/10 - 3/31/10                    36,002                  36,002                   -
4/1/10 - 6/30/10                    23,750                  23,750                   -
                                 2009-DD-BX-0093
10/1/09 - 12/31/09                  46,910                   48,758             1,848
1/1/10 - 3/31/10                    84,755                   82,880            (1,875)
4/1/10 - 6/30/10                    62,262                   62,262                  -
Source: OIG analysis of Enough is Enough's accounting records and FSRs

       During our audit, Enough is Enough stated that the amounts recorded
on the FSRs were supported by the quarterly Profit and Loss statements.
However, neither the quarterly statements nor the general ledger generally
support the amounts listed on the FSRs. From this analysis, we concluded
that Enough is Enough made changes to the general ledger after the FSRs
were prepared. We found a memorandum that stated adjustments were
made to contractor fees and supplies after the FSRs were filed. However,
there were no specific amounts, reporting periods, or other details listed in
the memorandum to verify the accuracy of those FSRs. Additionally, the
bookkeeper stated that there were times when the FSRs were submitted
before the accounting period was “locked.” 5 The effect of this practice is
that the quarterly Profit and Loss statements and the expenditures recorded
in the general ledger for the period do not reconcile to the FSRs. In our
opinion, the lack of adequate internal accounting controls impaired our
ability to reconcile Enough is Enough’s general ledger to submitted FSRs,

       5
          At the end of a uniform reporting period (which may be monthly, quarterly, or
annually), a standard accounting practice is to “lock” the accounting period to prevent users
from recording or modifying financial transactions for that period of time. According to its
written policies, Enough is Enough closes or locks their general ledger monthly. However, it
appears that Enough is Enough posted expenditures to its general ledger after the quarterly
Profit and Loss statements were prepared.

                                              6
Enough is Enough’s ability to ensure that its submitted FSRs were accurate,
and increases the risk of fraudulent activities going undetected. Therefore,
we recommend that OJP require Enough is Enough to develop and
implement written policies and procedures that ensure award expenses are
accurately reported on its FSRs.

Progress Reports

      While FSRs report grant financial activity, progress reports describe
the project status and accomplishments of the DOJ-grant supported program
or project. Progress reports should also describe the status of the project
and compare actual accomplishments to anticipated grant objectives.
According to the OJP Financial Guide, grantees are required to submit
progress reports every six months during the performance period of the
award. Progress reports are due 30 days after the end of each semi-annual
reporting period, June 30 and December 31. DOJ awarding agencies may
withhold grant funds if grantees fail to submit accurate progress reports on
time.

      To assess whether Enough is Enough submitted progress reports on
time, we reviewed progress report submission dates for each of the awards
and compared these dates to the due date for each progress report. For
award 2007-JL-FX-K006, we reviewed six progress reports, and for 2009-
DD-BX-0093 we reviewed two progress reports. We found that Enough is
Enough generally submitted progress reports in a timely manner.

      To determine if Enough is Enough’s progress reports contained
accurate performance measurement data, we analyzed the two most recent
progress reports for awards 2007-JL-FX-K006 and 2009-DD-BX-0093.
Enough is Enough’s progress reports for awards 2007-JL-FX-K006 and 2009-
DD-BX-0093 are addressing each of the award’s objectives, and each of the
objectives is consistent with the purpose of the OJJDP National Juvenile
Justice Program to reduce child victimization. From Enough is Enough’s two
most recent progress reports for each grant, we selected three program
measures to verify to supporting documentation. As summarized in Exhibit
3, we were unable to verify all claimed achievements.




                                      7
              Exhibit 3: Summary of Progress Report Testing

  Reporting                               Performance Measure
   Period               Reported                 Verified or Funded by Grant
                                      2007-JL-FX-K006
 7/1/2009 –
 12/31/2009      1,000 kits distributed       500 kits were paid for with grant funds
 1/1/2010 –
 6/30/2010     2,000 kits distributed     838 kits verified to documentation
 1/1/2010 –    1,027 people attended in-
 6/30/2010     person training            1,027 attendees verified to grantee summaries
                                    2009-DD-BX-0093
                                          50 adults attending in-person training were
 10/1/2009 –   In-person training for 50  verified to speaker sheets, sign-in sheets,
 12/31/2009    adults                     correspondence, and surveys
               1 Staff member
 1/1/2010 –    completed Internet Safety Verified staff member was employed and
 6/30/2010     101 Program training       trained during reporting period
                                          175 adults trained in-person were verified;
 1/1/2010 –    In-person training for 175 however, the same 175 people trained were
 6/30/2010     adults                     also claimed under 2007-JL-FX-K006 award
 Source: Grantee progress reports and supporting documentation

       We noted that Enough is Enough sometimes reported the same
training sessions on two different grants. For example, the 2007 award is
for nationwide training while the 2009 award is for training in Virginia.
Enough is Enough included training conducted in Virginia on both the 2009
performance achievements and the 2007 performance achievements. We
spoke with OJP regarding this “double-counting” of training and they stated
that grantees should not double count performance measures, or any other
data, reported to OJP. Grantees are expected to accurately report all
information included in its program and financial reports and maintain
appropriate back‐up documentation to support the data reported.

       We tested the number of kits the grantee reported distributed during
two different periods. 6 For the period 7/1/2009 – 12/31/2009 Enough is
Enough reported distributing 1,000 kits; however, the documentation
indicates that grant funds paid for only 500 kits with the other 500 kits being
distributed by the Virginia Attorney General Office. 7 Additionally, we tested
the 2,000 kits distributed during period 1/1/2010 – 6/30/2010. Enough is
Enough provided a spreadsheet that tracked the number of kits distributed

       6
         Kits include a workbook and resource guide, training booklet, and a 2 disc DVD
teaching series on Internet safety.
       7
         An OJP official stated that they would expect Enough is Enough to disclose that
500 of the 1,000 kits reported as distributed were funded by another grant.

                                             8
and according its spreadsheet, only 838 kits were distributed during the
period. Therefore, we were unable to verify the reported number of kits
distributed.

      Furthermore, an OJP September 2009 site visit recommended that
Enough is Enough improve the reporting of performance measures by
collaborating with OJJDP’s Research Coordinator and performance
contractor, CSR Incorporated. However, our review did not note any
collaborative efforts to improve performance metric reporting. 8 Therefore,
we recommend that OJP ensures Enough is Enough improves the reporting
of performance measures to accurately report on separate objectives for
each grant.

Drawdowns

      To obtain DOJ award money, grant recipients must use an automated
system to request funds via drawdowns. The Financial Guide states that
grant recipients should only request federal award funds when they incur or
anticipate project costs. Therefore, recipients should time their requests for
grant funds to ensure that they will only have the minimum federal cash on
hand required to pay for actual or anticipated costs within 10 days.

      Enough is Enough officials stated they request reimbursement of
expenditures and base drawdown requests on their monthly “burn rate” of
expenditures and the FSRs are the support for the drawdowns requests. 9
However, we noted that the grantee generally requested the same amount
for each draw down. 10




       8
          We interviewed Enough is Enough personnel and were told the Director of
Communications and President complete the progress reports and the source of information
that goes into the creation of the progress reports depends on the deliverable and objective.
For example, Enough is Enough indicated they used calendars to identify speaking
engagements it conducted and spreadsheets to count the number of DVDs it provided.
Neither the President nor the Director of Communications indicated they collaborated with
OJJDP’s Research Coordinator and performance contractor, CSR Incorporated. In July 2011,
following the exit conference and release of the draft report, OJP approved alternative
measures to report performance metrics.
       9
        However, we found the FSRs to be generally inaccurate. Additionally, FSRs are
completed on a quarterly basis, but drawdowns are requested more frequently.
       10
         See Appendix II for our analysis of the draw downs for awards 2007-JL-FX-K006
and 2009-DD-BX-0093 from inception through August 2010.

                                             9
      To ensure that Enough is Enough requested funds properly and kept
minimum federal cash on hand, we analyzed Enough is Enough’s drawdowns
for the two awards from the beginning of each award period through August
2010. We analyzed expenses incurred in the general ledger and compared
the total with the amount requested, taking into account an additional 10
days of anticipated costs. As shown in Exhibit 4, award 2007-JL-FX-K006
was overdrawn by more than $22,000, and 2009-DD-BX-0093 was
overdrawn by over $94,000.

                    Exhibit 4: OIG Analysis of Drawdowns

                         Total Drawn        Total Expenditures
       Award            Down Per OJP        Per General Ledger          Difference
  2007-JL-FX-K006              $730,000                  $707,712          $ (22,288)
 2009-DD-BX-0093                230,000                    135,115            (94,885)
            Total              $960,000                  $842,827          $(117,173)
Source: OIG analysis of OJP records and Enough is Enough general ledger as of August
31, 2010

      DOJ awarding agencies rely on grantees to report costs accurately so
they are aware of the progress of grant awards. By overdrawing on grant
funds, Enough is Enough is not adhering to the minimum cash-on-hand
policy. Therefore, we recommend that OJP remedy $22,288 in overdrawn
funds for award 2007-JL-FX-K006, and $94,885 in overdrawn funds from
grant 2009-DD-BX-0093. 11 Further, we recommend that OJP require that
Enough is Enough develop and implement procedures for reconciling
drawdown requests to its general ledger.

Budget Management and Control

       The Financial Guide states that grantees should expend grant funds
according to the budget approved by the awarding agency and included in
the final award. Approved grant budgets document how much the grantee is
authorized to spend in high-level budget categories, such as personnel,
travel, program income, and contractors. The Financial Guide also states
grantees may request a modification to approved grant budgets to reallocate
amounts between various budget categories within the same grant award.
No prior approval is required if the reallocations between budget categories
do not exceed 10 percent of the total award amount.

       11
           Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                            10
     We compared the actual amounts spent in each budget category to the
budgeted amounts in the same categories for both awards. For grant 2009-
DD-BX-0093, Enough is Enough adhered to Financial Guide requirements.
However, as shown in Exhibit 5, for award 2007-JL-FX-K006, Enough is
Enough had shifted more than 10 percent of its budget between two
categories - personnel and contractors - without prior approval.

              Exhibit 5: 2007-JL-FX-K006 Budget Analysis

                         Award                 Actual
    Cost Category        Budget             Expenditures          Over-budget
 Personnel               $ 353,250              $ 250,056
 Fringe Benefits            34,088                 21,556
 Travel                     13,688                  7,066
 Equipment                  20,094                 22,973               $     2,879
 Contractual               194,160                312,291                   118,131
 Other                     134,720                106,054
 Total                   $ 750,000              $ 719,996               $   121,010
 Total Over-budget Amount                                               $   121,010
 Allowable 10% of Total Costs                                           $    75,000
 Unallowable Cost                                                      $    46,010
 Source: OIG analysis of grantee’s approved budget and accounting records

      According to Enough is Enough, the primary reason for the deviation
from the approved budget was because the grantee had budgeted for
personnel positions, but instead either employed the persons as contractors
or paid for positions that were not in the approved budget, as shown in
Exhibit 6.




                                         11
            Exhibit 6: OIG Analysis of Approved Personnel for
                         Award 2007-JL-FX-K006

                                          Personnel             Position Filled By:
                                         Approved in
                                           Budget
             Position                                        Personnel      Contractor
Executive Director / President                 Yes                X
Program Director                               Yes                                X
Content Developer / Researcher                 Yes                X
Secretarial Support                            Yes                                X
Administrative Assistant                       Yes                X
Strategic Partnership Manager*                 Yes                X               X
Director of Communications**                   No                 X
Special Advisor to the President               No                                 X
Source: Enough is Enough personnel information and OJP’s Grant Management System
(GMS).
 * The Strategic Partnership Manager position was first filled by an employee who later
 became a contractor
 ** The Director of Communications and the Content Developer / Researcher positions
 were held by the same employee.

      Enough is Enough did not receive OJP approval for budget
modifications to shift funding from the personnel to the contractual cost
category. 12 Therefore, we recommend that OJP remedy $46,010 in
unallowable cost category transfers.

Grant Expenditures

       According to 2 C.F.R. Part 230, Cost Principles for Non-Profit
Organizations (formerly known as OMB Circular A-122), costs are allowable
if they are reasonable, consistently applied, adequately documented, comply
with policies and procedures, and conform to any limitations or exclusions
specified in applicable criteria. As of August 31, 2010, the Enough is Enough
general ledger reported $719,996 in project costs associated with award
2007-JL-FX-K006 and $230,808 in project costs associated with award
2009-DD-BX-0093. We sampled $185,670 (26 percent) charged to the
2007 award and $88,948 (39 percent) charged to the 2009 grant to ensure
the costs were allowable. Exhibit 7 displays by type of sampled cost, the



       12
           Enough is Enough stated that they would request a grant adjustment from OJP for
the 2007 award, but according GMS, Enough is Enough has not formally requested the
adjustment as of August 18, 2011. We note that OJP approved a budget modification on
April 12, 2011; however, these modifications were to the 2009 grant, which we did not find
unallowable cost category transfers.

                                            12
total value of the expenditures in each category, and the amount of
questioned costs our testing identified.

                Exhibit 7: Summary of Expenditures Review

                                         Total
         Type of Cost             General Ledger Costs            Questioned Costs
                                      2007-JL-FX-K006
Salary                                          $ 250,056                       $250,056
Other Direct Costs                                364,557                         71,505
Indirect Costs 13                                 101,858                        101,858
Accountable Property                                3,525                          3,390
Total 2007-JL-FX-K006                            $719,996                       $426,809
                                      2009-DD-BX-0093
Salary                                          $ 128,679                       $128,679
Other Direct Costs                                 51,525                         35,024
Indirect Costs13                                   47,662                         47,662
Accountable Property                                2,942                              0
Total 2009-DD-BX-0093                            $230,808                       $211,365
Source: OIG analysis of grant expenditures and supporting documentation

       The following sections detail our findings by cost category.

Salary

       We reviewed Enough is Enough’s timekeeping and payroll policies for
charging costs associated with salaries. Enough is Enough’s policies specify
that all employees are required to complete a weekly timesheet and record
all time worked by program and leave taken. According to the timekeeping
policy, once the employees complete the timesheet they submit their
timesheets to the Office Manager for approval; however, the payroll




       13
           The grantee did not identify indirect costs in their budget request and OJP did not
approve any indirect costs in the approved budget; however, during the audit we found that
the grantee identified in an internal memorandum certain items as indirect costs. The
grantee identified Rent, Office Expenses, Payroll Processing Fee, Payroll Taxes, Print and
Reproduction, Program Expenses, Marketing Supplies, Office Supplies, Program Supplies,
Telephone, Utilities, Postage, and Shipping and Delivery as indirect expenses. Therefore,
we classified all of these expenses as indirect costs. See section of the report which
discusses indirect costs.

                                             13
procedures indicate the Executive Director or Operations Manager is
responsible for reviewing and approving time. 14

       Enough is Enough pays personnel on a bi-weekly basis. However,
their policies specify all salaries and related taxes are charged first to its
general management account and then at the end of the month, salaries and
associated taxes are allocated to projects (DOJ grants and other
organizational cost objectives) via journal entry based on the monthly
percentage of hours worked on each project.

      In order to verify labor charges, we requested a list of all employees
paid with grant funds including each employee’s salary and pay rates for
each year the employee was paid with grant funds. We also selected a
random sample of timesheets and accompanying pay stubs in order to trace
the hours worked to the charges found in the general ledger. 15 We noted
that the grantee is not adhering to its timekeeping and payroll polices.
Therefore, we could not verify the payroll or associated fringe benefit costs
because:

   •   24 of 50 timesheets tested were either approved by the employee
       themselves or not approved by the Office Manager, the Executive
       Director, or the Operations Manager. 16

   •   16 of 50 timesheets were not completed appropriately. For example,
       check marks were used to denote vacation or sick time taken but the
       number of hours was not denoted.




       14
           Our review of Enough is Enough’s financial guide determined that most of the
policies and procedures are carried out by the Executive Director or Operations Manager.
However, the Executive Director position was vacant almost the entire award period and the
Operations Manager position was vacant for 8 months of the award period (November 2009
– February 2010 and June 2010-November 2010). The President and Office Manager
assumed these additional duties during these times.
       15
          The pay periods selected were for the first full pay period in January 2009,
December 2009, April 2010, and June 2010. However, Enough is Enough provided us
random timesheets that were outside of our original requested timeframe. We included
these timesheets in our sample analysis and requested accompanying pay stubs. We tested
$23,401 of payroll charges on 2007-JL-FX-K006 and $38,309 on 2009-DD-BX-0093.
       16
         Specifically, we found instances where the Office Manager and the President
approved their own timesheets.

                                           14
   •   For 41 of 50 timesheets tested, Enough is Enough did not produce pay
       stubs necessary to verify the pay rate used. 17

   •   The general ledger for both awards generally showed multiple payroll
       entries in a month for payroll; however, the grantee’s payroll
       accounting procedures state that the labor charges are allocated to the
       awards on a monthly basis. Additionally, we noted that payroll
       amounts per month appeared to vary significantly. For example,
       according to the general ledger, in one month one employee received
       payroll checks amounting to 35 percent of their annual salary.

      We requested clarification from the grantee on these issues and
Enough is Enough stated that at the end of FY 2009, they recognized that
the payroll charges were incorrect and they performed a reallocation of
payroll costs. As a result of this reallocation, the grantee said the
timesheets will not correspond to the labor charges in the general ledger.

      According to Enough is Enough, in order to compute the reallocation
charges, the grantee reviewed 100 percent of each employee’s timesheets to
calculate the total number of hours the employee worked for the year and
the total number of hours the employee worked on each project (DOJ
awards, other grants, or management and general activities such as
congressional education) 18. Using this information, they determined the
annual percentage of time the employee worked on each project and
extended this percentage by their total salary. Enough is Enough then made
journal entries to each project to “correct” the labor costs previously
charged. We requested documentation and support for the reallocation
entries.

      We reviewed these reallocation calculations and resulting journal
entries, but could not verify that the calculation or entries are correct and
thus ascertain if the amounts charged to the DOJ awards for labor are
correct. In our analysis, we noted the following issues:




       17
          The bookkeeper stated that Enough is Enough could not provide us with all
the pay rates or pay stubs for all of the pay periods we selected for testing.
       18
          We use the term congressional education to capture specific activity of Enough is
Enough. Enough is Enough’s President described this activity as meeting with Congressmen
and staffers to educate them on Enough is Enough’s program with the hopes that Enough is
Enough will receive funding.

                                            15
   •   During our audit, we were given two different copies of the FY 2009
       reallocation spreadsheet used to compute these corrections. 19
       However, these spreadsheets contained different allocations of the
       President’s time.

   •   The reallocation spreadsheet used a column entitled “other” but the
       timesheets provided during our review do not have this category.
       Therefore, it does not appear the “other” category was an available
       category at the date the timesheets were prepared and we are
       uncertain how the grantee arrived at an allocation for this category
       based on the methodology they described.

   •   In FY 2009, the Executive Assistant position was filled by two
       employees; however, the first version of the reallocation spreadsheet
       only took into account one employee’s time. Enough is Enough
       subsequently provided us with a second reallocation spreadsheet to
       account for both Executive Assistants’ time. However, the timesheets
       do not support either version of the reallocation.

   •   We noted that in FY 2009, the Director of Communications, whose
       assigned duties include congressional education, only charged 41
       hours to the management and general account. The management and
       general account was used by the grantee to accumulate all non-grant
       specific activity including congressional education and other non-
       federal grants. We asked Enough is Enough about the minimal time
       charged to the management and general account, and the grantee
       adjusted the FY 2009 reallocation spreadsheet to include more hours
       in the management and general account. However, Enough is Enough
       did not provide any additional details identifying which entries were
       adjusted or provide timesheets to accompany the adjustments.
       Therefore, we cannot be certain the grantee was correctly identifying
       all congressional education costs and excluding those costs from the
       grant awards

       Enough is Enough personnel also indicated that they would perform
another reallocation of labor at the end of FY 2010. The grantee provided us
with the spreadsheet used to track its FY 2010 labor distribution that will be
used to perform its year end FY 2010 labor charge reallocation. We
reviewed this documentation, compared it to our sample of timesheets, and
identified the following issues:

       19
          We received the first set of records on October 21, 2010. Following our
November 17, 2010 meeting with Enough is Enough to discuss identified issues, the grantee
provided the second copy of the records on December 17, 2010.

                                           16
   •   The grantee did not include the hours from 9 timesheets in the FY
       2010 spreadsheet. After we discussed the missing timesheets with the
       grantee, the grantee revised the FY 2010 spreadsheet not by locating
       the timesheets, but by calculating the number of hours worked on
       each cost objective (grant, congressional education, or management
       and general) based on the original general ledger charges. The
       grantee’s method does not support the changes to the FY 2010
       spreadsheet because without timesheets the general ledger charges
       are not supported.

   •   For July 2010, every Enough is Enough employee had the same time
       distribution for the entire month. Additionally, this is the only month
       in 2010 that charged time to the “other” category. 20

      Based on the issues identified with Enough is Enough’s reallocation of
FY 2009 labor charges and the spreadsheet that Enough is Enough
maintained for the FY 2010 reallocation, we question all labor charges under
both DOJ awards as unsupported, as summarized in Exhibit 8. Therefore,
we recommend OJP remedy the unsupported labor costs of $250,056 and
$128,679 for DOJ awards, 2007-JL-FX-K006 and 2009-DD-BX-0093,
respectively. Furthermore, we recommend that OJP require Enough is
Enough to improve its payroll procedures to ensure that timesheets are
prepared and approved appropriately.

               Exhibit 8: Summary of Questioned Labor Costs

                                                            Award Charges
                                                       2007-JL-FX- 2009-DD-BX-
                     Position                             K006         0093
President                                                $ 95,889     $ 45,274
Director of Communications                                  19,434        30,200
Office Manager/ Executive Assistant                         51,585        29,695
Strategic Partnerships/Marketing Manager                    26,558        22,887
Executive Director                                               0           623
Research Assistant                                          56,590             0
    Total Labor Costs                                      $250,056             $128,679
 Source: OIG analysis of Enough is Enough’s general ledger



       20
           Employee work time was distributed across the same cost objectives with 20
hours charged to the 2007 award, 16 hours charged to the 2009 award, and 4 hours
charged to the “other” category for every week in July 2010. In our judgment, it is unusual
that all personnel in an organization had the exact allocation of efforts for an entire month.

                                             17
Other Direct Costs

      We selected a judgmental sample of 23 other direct cost transactions
from award 2007-JL-FX-K006 totaling $160,670, and 12 other direct cost
transactions from 2009-DD-BX-0093 totaling $35,024 to determine if the
charges are allowable and allocable to the DOJ awards. Additionally, we
requested a list of contractors paid with award funds and reviewed the
contracts to ensure that these expenditures were in accordance with the
award terms. During the project period, Enough is Enough paid 12
contractors with award funds to produce its DVD and Internet Safety 101
materials; provide accounting, legal, and consulting services; evaluate the
success of its program; and staff the Operations Manager and Strategic
Partnerships/Marketing Manager positions.

     Based on our review, we questioned $2,330 as unallowable on award
2007-JL-FX-K006. We also question as unsupported $69,175 and $35,024
on awards 2007-JL-FX-K006 and 2009-DD-BX-0093, respectively.

     Unallowable Costs

       As shown in Exhibit 9, we questioned as unallowable 6 transactions
totaling $2,330 on award 2007-JL-FX-K006. No transactions reviewed in
grant 2009-DD-BX-0093 were determined to be unallowable.




                                     18
  Exhibit 9: Summary of Unallowable Other Direct Costs on Award
                        2007-JL-FX-K006

                     General     General
    Account          Ledger      Ledger      Unallowable
   Description        Date       Amount        Amount                    Note
                                                             Portion of invoice not
 Contract Fee         6-3-08       $6,667             $667   related to grant
                                                             Portion of invoice not
 Contract Fee        7-16-08        6,667              667   related to grant
                                                             Mileage to meeting with the
                                                             then OJJDP Administrator to
                                                             discuss grant
 Travel &                                                    implementation and his
 Entertainment                                               possible future employment
 Mileage              1-8-09           33               33   at Enough is Enough
 Travel &
 Entertainment
 Mileage             1-13-09          479              479   Spa and sushi charges

 Communication                                               Birthday cake for employee,
 and PR              1-13-09          920              384   meals in excess of per diem
 Employee                                                    Rebate not recouped on
 Reimbursement      10-27-09          262              100   Blackberry device purchase

                                     Total           $2,330
Source: OIG analysis of Enough is Enough’s general ledger expenses and supporting
documentation

      On two consultant invoices we reviewed, Enough is Enough indicated a
portion of the consultant charges were for services unrelated to grant
management. Therefore, the identified portion ($667) is not allocable to the
2007 award. Additionally, Enough is Enough included the mileage costs to a
November 2008 lunch with the Administrator of OJJDP at the time (J. Robert
Flores). The lunch concerned a status update of the Enough is Enough
program. According to the President of Enough is Enough, the possible




                                            19
employment of the Administrator after he left office was also discussed.
Therefore, we question the mileage cost as an unallowable expense. 21

      During our review of expenses, we noted charges to the 2007 award
for spa services, sushi, meals in excess of per diem, and an employee
birthday cake. Enough is Enough’s President concurred that these expenses
should not have been included on the grant charges, and reimbursed the
grant for these expenses. 22 Further, we observed the grantee purchased a
Blackberry device and was provided a $100 rebate that was not allocated to
the grant. According to 2 C.F.R Part 230, if the rebate relates to an
allowable cost, the grantee should credit the award for the rebate.




       21
          Mr. Flores served as the OJJDP Administrator from 2002 through January 2009.
As Administrator, Mr. Flores approved Enough is Enough’s 2007 award. This award, as well
as many other FY 2007 OJJDP awards, was controversial because other award applicants
received higher peer review scores, but were bypassed in favor of applicants who received
much lower peer review scores. An April 2009 OIG audit found that as OJJDP Administrator,
Flores had full discretion to make awards without being bound by peer review scores.
However, neither Flores nor OJJDP maintained any documents to show why specific award
decisions were made. U.S. Department of Justice Office of the Inspector General,
Procedures used by the Office of Juvenile Justice and Delinquency Prevention to award
Discretionary Grants in Fiscal Year 2007, Audit Report 09-24 (April 2009).

        Subsequent to leaving office, Mr. Flores started Hampton Road Strategies, LLC and
was retained as a Special Advisor to the Enough is Enough President. Mr. Flores began
work with Enough is Enough on February 2, 2009, but his consulting charges were not
allocated to the 2007 DOJ award until March 2, 2010 – over 1 year after he left his position
as OJJDP Administrator. Mr. Flores also provided consulting services for the 2009 DOJ
award.
       22
          We provided Enough is Enough with a list of unallowable expenses and discussed
these issues with Enough is Enough on November 17, 2010. In December 2010, Enough is
Enough’s President reimbursed the spa, sushi, and charges related to meals in excess of per
diem. Enough is Enough also provided adjusting journal entries showing that the remaining
unallowable other direct costs had been reversed from the 2007 award and charged to its
management general account.

                                             20
Unsupported Costs

       We noted that 13 of the 23 other direct costs transactions tested on
award 2007-JL-FX-K006 and 12 of the 12 other direct costs transactions
tested on 2009-DD-BX-0093 did not have adequate documentation to
determine if the expenses were allowable charges. We recommend OJP
require that Enough is Enough implement internal controls that ensure the
grantee maintains adequate documentation to support allowable charges on
DOJ awards including: (1) appropriate approvals on reimbursement
requests; (2) maintaining invoices, receipts and receiving reports to support
grant expenditures; (3) a revised travel reimbursement process in-line with
OJP site visit requirements; (4) an objective method to allocate contractor
and consultant expenses to cost objectives that can be independently
verified; and (5) sufficient support for reallocation or adjusting entries
including the methodology, rationale, approvals, supporting schedules, and
supporting documentation such as invoices, timesheets and journal entries.

      Exhibits 10-11 and the following sections of the report summarize the
basis for our questioning the 25 transactions. The 13 unsupported
transactions on award 2007-JL-FX-K006 total $69,175 and 12 unsupported
transactions on 2009-DD-BX-0093 total $35,024.




                                     21
          Exhibit 10: Summary of Unsupported Other Direct Costs for Award 2007-JL-FX-K006

            Transaction                    Unsupported Costs
General General
Ledger  Ledger         Account         Unsupported      Missing
 Date   Amount        Description       Allocation   Documentation                                      Notes
                                                                         No support for the allocation of 100 percent of the costs to this
6-3-08       $6,667 Contract Fee            $6,000                       grant.
                                                                         No support for the allocation of 100 percent of the costs to this
7-16-08       6,667 Retainer Fee             6,000                       grant.
                                                                         Unclear allocation. Reimbursement request has multiple cross outs,
                    Better                                               the check register description conflicts with costs charge to the DOJ
1-8-09        7,678 Impressions              7,678                       award.
                    Travel and                                           Some mileage costs are missing dates or the purpose of the trip, and
1-8-09        1,271 Entertainment                              $846      how it relates to the grant.
                                                                         The approved budget did not list local meals and some of these local
                   Communications                                        meals are missing the purpose of the meal, how it directly relates to
1-13-09        920 and PR                                       268      the grant.
                                                                         Insurance costs were not authorized as a direct expense and no
7-29-09        400 Erie Insurance              400                       support for the allocation of the costs to this grant.
                                                                         The payee in general ledger does not match the payee on the check;
                                                                         the reimbursement request splits the charge differently than how the
10-15-09      7,947 Bonnemaison                                7,947     general ledger lists the payment.
                                                                         The approved budget did not list Blackberry devices as approved
                   Employee                                              equipment; no support for the allocation of 100 percent of the costs
10-27-09       262 reimbursement               162                       to this grant.
                                                                         No support for the allocation of 100 percent of the costs to this grant
                                                                         when similar invoice split between the 2007 award and management
12-22-09     23,250 Adfero Group            23,250                       and general.
                                                                         Similar invoice charged 100 percent to the 2007 award; this one is
3-9-10       13,750 Adfero Group            13,750                       split with no documentation for the basis for the allocation.
3-31-10       2,473 Product Giveaway                           2,473     No documentation supporting this expense.
                                                                         The Apple computer was not authorized as a direct expense and no
                   Repair to Mac                                         support for the allocation of 100 percent of the repair costs to this
7-27-10        358 Computer                    358                       grant.
7-1-10          43 Internet charges                                 43   No invoice provided and no support for the allocation.
                          Totals     $57,598            $11,577
 Source: OIG analysis of Enough is Enough’s general ledger expenses and supporting documentation



                                                               22
           Exhibit 11: Summary of Unsupported Other Direct Costs for Award 2009-DD-BX-0093

           Transaction                  Unsupported Costs
General General
Ledger Ledger   Account             Unsupported    Missing
 Date   Amount Description           Allocation Documentation                                   Notes
                                                                     Fulfillment costs were not included on the 2009 award budget;
12-10-09    $2,500 Fulfillment            $2,500                     no support for the allocation.
                   Byron Bartlett
3-31-10      4,235 Consulting              4,235                     No documentation supporting the allocation.
                   Hampton
3-2-10       3,960 Roads, LLC              3,960                     No documentation supporting the allocation.
                   Hampton
3-31-10      3,960 Roads, LLC              3,960                     No documentation supporting the allocation.
                   Julie Koh
3-10-10      3,450 Consulting              3,450                     No documentation supporting the allocation.

3-9-10       1,053 CPA Services            1,053                     No documentation supporting the allocation.
                   Byron Bartlett
4-30-10      5,220 Consulting              5,220                     No documentation supporting the allocation.
                   Julie Koh
4-16-10      3,450 Consulting              3,450                     No documentation supporting the allocation.
                   Julie Koh
5-14-10      3,450 Consulting              3,450                     No documentation supporting the allocation.
                   Julie Koh
6-17-10      3,537 Consulting              3,537                     No documentation supporting the allocation.
                   Cleaning                                          Cleaning costs split only between the 2 DOJ awards; the
7-6-10         180 Services                 180                      allocation is unsupported.
                                                                     No documentation on what the charge is for; no
7-2-10          29 Service Charge                                $29 documentation on what basis the cost is allocated.

                          Totals      $34,995                $29
 Source: OIG analysis of Enough is Enough’s general ledger expenses and supporting documentation




                                                            23
       Unsupported Costs on Award 2007-JL-FX-K006.

       As summarized in Exhibit 10, we identified 13 in our sample of 23
other direct costs transactions that were questioned because either the
method used to allocate the costs to the 2007 award was not supported or
the transactions were missing supporting documentation. For example, the
contract fee and retainer fee transactions are expenses attributable to the
contractor (IYS Corporation) hired as the Enough is Enough Operations
Manager. While we were provided an invoice for the monthly service fee, we
were not provided a listing of tasks the individual performed that were
directly related to the 2007 award or any breakout of the time spent on each
task. Further, the contractor agreement we were provided specifically states
that IYS will provide consultation and services as required to direct the
operational, financial and administrative management of a 2005 OJJDP
awarded (award number 2005-JL-FX-K198). The 2007 award is not listed
and the agreement was dated March 2008, after the 2007 award was
granted. Therefore, the two $6,000 charges to the 2007 award are
unsupported.

       For the $7,678 (Better Impressions) transaction, Enough is Enough
provided documentation that had numerous unexplained cross outs on the
reimbursement request and the description from the “Write Check” printout
did not correspond with the amounts charged to the DOJ award; therefore,
the amount allocated to the DOJ award is not supported. 25 Additionally, we
noted inconsistent treatment of like and similar charges. One Adfero invoice
was charged entirely to the 2007 award ($23,250) and another ($13,750)
was split between the 2007 award and non-DOJ activities. No
documentation was provided supporting either the 100 percent allocation to
the 2007 award or the split allocation. According to 2 C.F.R. Part 230, a cost
is allocable to a federal award if it is treated consistently with other costs
incurred for the same purpose in like circumstances. Because the grantee is
treating like and similar cost inconsistently, we question the unsupported
allocations.




       25
            Enough is Enough uses the “Write Check” feature within Intuit QuickBooks
software to fill out checks. This feature allows you to fill out an onscreen form that looks
like a real business check. The user types in the numbers and QuickBooks does the math
and automatically adds the check to your register. The description Enough is Enough used
to itemize the charges to the 2007 award on the “Write Check” for the Better Impressions
transaction in question does not match the description of what was charged to the 2007
award on the notations made on the Better Impressions invoice.

                                             24
      We noted 5 transactions that were missing supporting documentation.

  •   The $1,271 travel and entertainment transaction, dated 1/8/09, is for
      mileage reimbursement, but several trips totaling $846 are missing
      the complete date and purpose of the meeting so we cannot ascertain
      if they directly tie to the 2007 award.

  •   The $920 Communications and PR transaction, dated 1/13/09, is
      comprised of numerous meal cost reimbursements. Several of the
      meals appear to be local meals and the 2007 award did not contain an
      allotment for local meals; regardless, several of the meals totaling
      $268 are missing the purpose of the meals and how the purpose
      directly relates to the 2007 award.

  •   The $7,947 in the general ledger is listed as a payment to
      Bonnemaison, but we were provided a credit card charge to a different
      contractor. Further, we cannot reconcile the credit card charge to the
      provided invoice, and the “Write Check” print out specifies a different
      split of the costs than reflected in the general ledger.

  •   The $2,473 transaction was listed in the general ledger as Product
      Giveaway and the $43 transaction was listed as internet charges. We
      were provided no invoice or other documentation for either of these
      expenses.

      For three transactions the grantee did not provide sufficient
documentation to support the allocation of costs to the 2007 award. For
example, $400 of a $703 insurance expense was allocated to the 2007
award. The grantee had not requested insurance as a direct or indirect cost
in their approved budget and no support was provided on how the grantee
determined the amount charged to the 2007 award. Additionally, the
grantee charged the entire cost of a Blackberry device and a repair of an
Apple computer to the 2007 award even though no Blackberry device or
Apple computer was included in the approved budget and they did not
provide any documentation justifying the allocation of 100 percent of the
cost to the 2007 award.

      Unsupported Costs on Award 2009-DD-BX-0093.

      As summarized in Exhibit 11, we identified 12 in our sample of 12
other direct costs transactions totaling $35,024 that were questioned
because the method used to allocate the costs to the 2009 award was not




                                     25
supported or the grantee was missing documentation. 26 For example, 9 of
the 12 transactions tested were for various consulting charges. We reviewed
the provided documentation and were not able to validate the charge to the
2009 award because the grantee did not require the contractor to itemize
tasks by award and the number of hours the consultant worked to
accomplish the task. Without a means to verify what the consultant did
specifically for the 2009 award and how much of the total consulting charge
is applicable to those identified tasks, we cannot ensure that the 2009 award
was correctly charged. Therefore, all 9 consulting charges tested are
considered unsupported.

      In addition to the consulting charges, we question 2 transactions
because of unsupported allocations. The $2,500 fulfillment and the $180
cleaning transactions were charged to the 2009 award even though the 2009
approved budget did not list any of these types of costs. 27 Further, the
grantee did not provide any documentation supporting the allocation of
these costs to the 2009 award. In the case of the fulfillment, 100 percent of
these expenses were charged to the 2009 award, while 50 percent of the
cleaning costs were charged. Since the 2007 and not the 2009 award
contained direct fulfillment costs, and cleaning costs easily benefit more than
just DOJ awards, additional documentation is needed to support the
grantee’s allocations.

Indirect Costs

      The grantee requested in their approved 2007 and 2009 budgets direct
costs; they did not request any indirect costs and did not provide an
approved cost allocation plan. 28 However, we determined that Enough is
Enough was distributing some costs to several cost objectives (awards or
general management activities) by using an unsupported allocation base.
Further, a grantee memorandum, dated May 27, 2010, identified Rent,
Office Expenses, Payroll Processing Fee, Payroll Taxes, Print and
Reproduction, Program Expenses, Marketing Supplies, Office Supplies,

       26
         Only one 2009 transaction tested was missing supporting documentation. The
$29 charge for service charges had no supporting invoice or detail specifying what the
charge was for or validating the amount.
       27
         Fulfillment is the price that the grantee pays for a third party company to send
out Enough is Enough’s products from a warehouse.
       28
            According to 2 C.F.R. Part 230, direct costs are those that can be identified
specifically with a particular final cost objective, i.e., a particular award, project, service, or
other direct activity of an organization. Indirect costs are those that have been incurred for
common or joint objectives and cannot be readily identified with a particular final cost
objective.

                                                26
Program Supplies, Telephone, Utilities, Postage, and Shipping and Delivery
as indirect expenses.

      We reviewed 13 transactions that met the grantee’s definition of
indirect costs. We noted some of the transactions tested did not have
invoices or other documentation to support the expense. In Exhibit 12, we
summarize the transactions missing supporting information.

         Exhibit 12: Summary of Review of Indirect Cost Transactions

                  Transaction
                                                 Unsupported
 Date         Amount Account Description            Costs                         Notes
                                      Award 2007-JL-FX-K006
8-4-08          $ 399 Office Supplies                    $399 No invoice
11-17-08          283 Space Storage                       283 No invoice

Total            $682                                      $682
                                         Award 2009-DD-BX-0093
11-17-09           81    Brochure Printing                    25   No support of $25 charge
                         Telephone &
3-31-10          2,158   Telecommunication                   443   Missing   various invoices
3-31-10          1,292   Office Supplies                     985   Missing   invoices
3-31-10            580   Program Supplies                    310   Missing   invoices
3-31-10          1,160   Office Expense                      107   Missing   invoices

 Total         $5,271                                    $1,870
Source: OIG analysis of Enough is Enough’s general ledger expenses and supporting
documentation

       Furthermore, during our review of these indirect costs, we noted that
the grantee was either using an unsupported allocation base to charge costs
to DOJ awards or not treating like and similar costs consistently. According
to the OJP Financial Guide, if a recipient does not have an approved federal
indirect cost rate, funds budgeted for indirect costs will not be recoverable
until a rate is approved. When we discussed the indirect costs with the
grantee, they stated that since items such as rent, utilities, and phone were
listed in their budgets as direct costs, that there was no need for Enough is
Enough to apply for and receive approval for an indirect cost rate. 29




         29
           Additionally, Enough is Enough’s President told us that the organization was small
and did not need an indirect cost rate, and they view DOJ awards as “fixed price contracts,”
where Enough is Enough is required to deliver specific services and products for a fixed
amount of money. Enough is Enough officials also stated that the organization did not need
an indirect cost rate because there is a threshold of $1 million, and the organization does
not have an individual award that exceeds that amount.

                                                27
        We spoke with OJP concerning the grantee’s position and OJP stated
that in order for Enough is Enough to charge indirect costs to the awards,
they must have a federally approved indirect cost rate. Assuming the
grantee had an approved budget for the award that included costs for rent,
utilities, and phone, they would have to explain the methodology used and
provide supporting documentation that shows how the costs were charged
as direct costs. While OJP cannot mandate that grantees apply for an
indirect cost rate, the grantee may not avoid applying for and obtaining an
approved indirect cost rate by simply listing the items as direct costs.
Exhibit 13 summarizes our findings relative to the allocation of these indirect
expenses.

   Exhibit 13: Summary of Review of Inconsistent or Unsupported
                           Allocations

             Transaction
                         Account          Allocation Base
 Date      Amount       Description         Percentage                      Notes
                                      Award 2007-JL-FX-K006
                                                          Inconsistent treatment of like and similar
                                                          expenses; other supply costs split using
8-4-08       $399    Office Supplies        100 percent   unsupported allocation rate.
                                                          Inconsistent treatment of like and similar
                                                          expenses; other rental costs split using
11-17-08     $283    Space Storage          100 percent   various unsupported allocation rates.
                                      Award 2009-DD-BX-0093
                                                          Inconsistent treatment of like and similar
11-17-09      $81    Brochure Printing      100 Percent   expenses.
                                                          Inconsistent treatment of like and similar
                                                          expenses; other rental costs split using
12-29-09    $2,440   Rent                    40 percent   various unsupported allocation rates.
                                                          Inconsistent treatment of like and similar
                                                          expenses; other rental costs split using
2-2-10      $3,050   Rent                   100 percent   various unsupported allocation rates.
                     Telephone &                          The grantee’s allocation base was not
3-31-10     $2,158   Telecommunication       48 percent   supported.
                                                          The grantee’s allocation base was not
3-31-10      $169    Program Expense         48 percent   supported.
                                                          The grantee’s allocation base was not
3-31-10      $531    Supplies: Marketing     48 percent   supported.
                                                          The grantee’s allocation base was not
3-31-10     $1,292   Supplies: Office        48 percent   supported.
                                                          The grantee’s allocation base was not
3-31-10      $580    Program Supplies        48 percent   supported.
                                                          The grantee’s allocation base was not
3-31-10     $1,160   Office Expense          48 percent   supported.
                     Telephone &                          The grantee’s allocation base was not
4-30-10     $1,210   Telecommunication       48 percent   supported.
                                                          The grantee’s allocation base was not
7-30-10       $80    Telly Award             50 percent   supported.
Source: OIG analysis of Enough is Enough’s general ledger expenses and supporting
documentation

                                                28
       Based on our analysis of the supporting documentation, review of cited
criteria, and discussions with OJP, we question all indirect cost transactions
because the grantee: (1) allocates these costs to multiple cost objectives
rather than to one particular final cost objective; (2) identifies these
expenditures as indirect costs, but does not have an approved indirect cost
plan; and (3) allocates indirect costs with an unverifiable methodology. We
recommend OJP remedy the $149,520 of unsupported indirect expense by
ensuring the grantee is allocating like and similar indirect costs using a
consistent, verifiable and approved method. As part of this
recommendation, OJP should ensure that the grantee provide adequate
documentation supporting the 7 transactions totaling $2,552 identified in
Exhibit 12. Exhibit 14 summarizes our questioned indirect costs.

           Exhibit 14: Summary of Questioned Indirect Costs


                                Award                  Award
    Cost Category          2007-JL-FX-K006        2009-DD-BX-0093              Total
Rent                              $     21,696                $   14,426   $   36,122
Office Expenses                          1,698                     2,454        4,152
Payroll Processing Fee                   1,215                       475        1,690
Payroll Taxes                           21,073                    11,397       32,470
Print and Reproduction                  17,282                     2,368       19,650
Program Expenses                           106                       169          275
Marketing Supplies                       5,715                       531        6,246
Office Supplies                          7,474                     1,302        8,776
Program Supplies                           673                       803        1,476
Telephone                               18,507                     7,912       26,419
Utilities                                  751                     1,036        1,787
Postage                                    153                        16          169
Shipping and Delivery                    5,515                     4,773       10,288
Total                             $ 101,858                   $ 47,662 $149,520
Source: OIG analysis of Enough is Enough accounting records

Accountable Property

      The Financial Guide requires that property purchased with federal
funds be adequately protected from loss, maintained via serial number or
other identifying number, inventoried at least once every two years, labeled
with the source of the funding, and recorded as to indicate the use and
condition of the property. Additionally, the Financial Guide specifies that
allowable costs must be reasonable, allocable, necessary to the project, and


                                          29
comply with the funding statute requirements. These requirements help
ensure that accountable property purchased with federal funds are being
used for grant purposes, and not for private or personal use.

       While we found that Enough is Enough maintains an Excel spreadsheet
to track its accountable property, the document does not include all
information required by OJP, such as listing acquisition dates, whether
property titles rest with the federal government, and the use of the items.
Additionally, we found that Enough is Enough: (1) does not conduct an
inventory of its property every two years, as required by the Financial
Guide; (2) does not differentiate between accountable property purchased
with federal funds and property purchased with other funding sources;
(3) did not have policies that ensured its employees used accountable
property purchased with federal funds properly for grant-related purposes.
Without these controls, the likelihood that Enough is Enough employees may
misuse federally funded accountable property increases. Additionally, only
two out of the five computers tested were being used at the time of our
audit. 30 Therefore, we recommend that OJP ensure that Enough is Enough
implements and follows accountable property procedures that adequately
track and safeguard items purchased with DOJ grant funds.

      The Financial Guide states that grantees can use awards to purchase
computers, but that computer purchases require prior approval from the
granting agency. We reviewed the approved budget and general ledger for
awards 2007-JL-FX-K006 and 2009-DD-BX-0093 to determine if the grantee
adhered to the award requirements. We determined that the grantee
adhered to the terms of the 2009-DD-BX-0093 award and we take no
exception to the purchased computer or network printer. However, we
determined that the grantee did not comply with the terms of the 2007-JL-
FX-K006 award.

      The approved budget allowed one computer and one printer under the
terms of the 2007-JL-FX-K006 award. However, after reviewing Enough is
Enough’s general ledger and property records, we found that instead of
purchasing one computer and printer, Enough is Enough had paid off leases
on four computers and a monitor using funds from the 2007-JL-FX-K006
award. 31 Furthermore, we were unable to reconcile the lease payment

      30
          Furthermore, during our testing, we noted that Enough is Enough was authorized
to purchase 7 computers, but instead chose to lease 4 computers and purchase 1 computer
with grant funds and staff were only using two of these computers.
      31
          Enough is Enough was approved to purchase 3 computers, 1 monitor, and 1
printer under a previous DOJ award number 2005-JL-FX-K198. However, instead of
purchasing this equipment the grantee leased 4 computers and 1 monitor.

                                           30
amounts charged to the grant with supporting documentation from Enough
is Enough’s property records and payment invoices. Therefore, we question
$3,390 of computer lease charges on the 2007-JL-FX-K006 award because
the grantee was not authorized to charge lease payments for four computers
and a monitor to the award, and we were not able to reconcile the charges
to the general ledger with Enough is Enough accountable property records
and Dell lease payment history.

Program Income

      Enough is Enough used DOJ grants to develop, produce, and distribute
copies of its Internet Safety 101 DVD, toolkits, and other program materials.
As a part of the program, the grantee requested funds under the 2007
award to distribute 5,000 copies of the booklet and 10,000 copies of the
DVD. The 2009 grant budget requests funding for 1,100 copies of the
booklet and 1,100 copies of the DVD. These materials are labeled with the
OJJDP logo and acknowledge that the materials were funded by the OJJDP
grants. We determined that Enough is Enough distributes its materials by
providing copies of these materials for free and selling the materials through
online merchants. According to the bookkeeper, Enough is Enough deposits
the income generated through these sales in its general management fund.

      We reviewed the grant general ledgers and did not identify any
program income in these accounts, so we requested that Enough is Enough
provide us with the total amount of revenue generated from the sale of
these materials, the total number of copies sold, and the date of sale. The
President did not provide us with this information stating they do not believe
that the information requested regarding program sales with grant funds is
covered under this audit. The grantee has stated that because OJJDP
granted Enough is Enough the right to license and copyright the Internet
Safety 101 program, it does not need to report the program income.
Enough is Enough also told us that as long as it gives away the copies
requested in its grant budget that it is free to sell any excess materials.
However, the grantee could not provide us with supporting correspondence
from OJJDP regarding the matter and Enough is Enough does not maintain
adequate documentation that tracks the number of free copies distributed in
comparison to the number of copies sold.

      We also contacted OJP for its opinion on the matter. OJP stated that it
did not have enough information to determine whether program income was
earned on awards 2007‐JL‐FX‐K006 and 2009‐DD‐BX‐0093 because the
grantee has not provided sufficient accounting records or other
documentation to enable the determination of how much program income, if
any, would be allocable to each grant. However, normally, the amount of

                                     31
revenue generated from the sale of the toolkits would have been allocated to
the grant(s) in proportion to the amount of federal funds contributed to their
production. If program income were earned on OJP grant(s), it would need
to be reported on the applicable Federal Financial Reports (SF‐425s) and
according to OMB Circular A-133, program income should be considered as a
factor in determining whether a Single Audit is required.

      Therefore, we recommend that OJP determine how much program
income, if any, has been generated, ensure that Enough is Enough
accurately allocate these funds to the grants in proportion to the amount of
Federal funds contributed to their production, report this income on Federal
Financial Reports (SF-425s), and consider these funds as a factor in
determining whether a Single Audit is required.

Recommendations

We recommend that OJP:

   1. Require Enough is Enough to develop and implement written policies
      and procedures that ensure award expenses are accurately reported
      on its FFRs.

   2. Ensure Enough is Enough improves the reporting of performance
      measures to accurately report on separate objectives for each grant.

   3. Remedy the unsupported $22,288 in overdrawn funds for award 2007-
      JL-FX-K006.

   4. Remedy the unsupported $94,885 in overdrawn funds from grant
      2009-DD-BX-0093.

   5. Require that Enough is Enough to develop and implement procedures
      for reconciling drawdown requests to its general ledger.

   6. Remedy $46,010 in unallowable cost category transfers.

   7. Remedy the $250,056 in labor charges charged to award 2007-JL-FX-
      K006.

   8. Remedy the $128,679 in labor charges charged to grant 2009-DD-BX-
      0093.

   9. Require Enough is Enough improve its payroll procedures to ensure
      that timesheets are prepared and approved appropriately.

                                     32
10. Remedy $2,330 in unallowable other direct costs charged to the 2007-
    JL-FX-K006 award.

11. Require that Enough is Enough implements internal controls that
    ensure the grantee maintains adequate documentation to support
    allowable charges on DOJ awards including: (1) appropriate approvals
    on reimbursement requests; (2) maintaining invoices, receipts and
    receiving reports to support grant expenditures; (3) a revised travel
    reimbursement process in-line with OJP site visit requirements; (4) an
    objective method to allocate contractor and consultant expenses to
    cost objectives that can be independently verified; and (5) sufficient
    support for reallocation or adjusting entries including the methodology,
    rationale, approvals, supporting schedules, and supporting
    documentation such as invoices, timesheets and journal entries.

12. Remedy $69,175 in unsupported other direct costs charged to award
    2007-JL-FX-K006.

13. Remedy $35,024 in unsupported other direct costs charged to grant
    2009-DD-BX-0093.

14. Remedy $101,858 in unsupported indirect costs allocated to the 2007-
    JL-FX-K006 award by ensuring that the grantee is allocating like and
    similar indirect costs using a consistent, verifiable and approved
    method and require that Enough is Enough provides adequate
    documentation to support the $682 in unsupported indirect cost
    transactions.




                                   33
15. Remedy $47,662 in unsupported indirect costs charged to the 2009-
    DD-BX-0093 grant by ensuring that the grantee is allocating like and
    similar indirect costs using a consistent, verifiable and approved
    method, and require that Enough is Enough provides adequate
    documentation to support the $1,870 in unsupported indirect cost
    transactions.

16. Ensure that Enough is Enough implements and follows accountable
    property procedures that adequately track and safeguard items
    purchased with DOJ grant funds.

17. Remedy the $3,390 cost of unallowable computer leases.

18. Determine how much program income, if any, has been generated,
    ensure that Enough is Enough accurately allocates these funds to the
    grants in proportion to the amount of federal funds contributed to their
    production, report this income on Federal Financial Reports (SF-425s),
    and consider these funds as a factor in determining whether a Single
    Audit is required.




                                   34
           SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS: 32                                          AMOUNT          PAGE

Unsupported Costs

Drawdowns                                                       $117,173          10
Budget Reallocations                                              46,010          11
Salary Costs                                                     378,735          17
Other Direct Costs                                               104,199          21
Indirect Costs                                                   149,520          29


    Total Unsupported Costs                                    $795,637


Unallowable Costs

Other Direct Costs                                                $2,330          18
Accountable Property                                                3,390         31

    Total Unallowable Costs                                       $5,720


Total Questioned Costs                                         $801,357




      32
           QUESTIONED COSTS are expenditures that do not comply with legal, regulatory
or contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                           35
                                                       APPENDIX I

        OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants reviewed were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. The objective of our audit was to review
performance in the following areas: (1) financial status and progress
reports, (2) drawdowns, (3) budget management and control,
(4) expenditures, (5) contractor monitoring, and (6) program income.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit concentrated on award nos. 2007-JL-FX-K006 and 2009-DD-
BX-0093 to Enough is Enough by OJP. The purpose of these awards is to
support an enhanced version of its Internet Safety 101 program. The
Internet Safety 101 program is designed to raise the national public
awareness of the threat of illegal pornography and sexual predation on the
Internet and the need for preventative safety measures by providing training
to parents, teachers, and law enforcement through a DVD and workbook
training kit. Our scope included all grant activity from inception through
August 2010.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audit against are contained in the Office of Justice Programs
Financial Guide and the award documents.

      In conducting our audit, we performed sample testing in the following
areas:




                                     36
•   Drawdowns. We analyzed Enough is Enough’s drawdowns for the
    DOJ awards from inception through August 2010. Enough is Enough
    determined drawdown requests by assessing their monthly “burn rate”
    of expenditures and stated the support for its drawdown requests were
    the FSRs; however, we determined the FSRs were inaccurate.
    Therefore, we compared the overall drawdown requests to the overall
    expenditures in the general ledger.

•   Payroll. We reviewed Enough is Enough’s policies and spoke with
    officials regarding timekeeping and charging personnel costs. To
    determine whether Enough is Enough’s personnel costs were
    supported and allowed, we judgmentally selected a random sample of
    timesheets to verify labor charges. Due to inadequate recordkeeping
    and weak internal controls, we could not tie the timesheets to the
    charges in the general ledger or verify fringe benefit charges.

    Enough is Enough stated that at the end of FY 2009 they recognized
    that the payroll charges were incorrect and they performed a
    reallocation of payroll costs. As a result of this reallocation, the
    grantee said the timesheets will not correspond to the labor charges in
    the general ledger. We attempted to verify the reallocation entries but
    the documentation provided was not accurate or complete. Therefore,
    we could not verify that the reallocation calculations and corresponding
    journal entries were appropriate and as such that the amount grant
    labor costs were supported and allowable.

•   Other Direct Costs. To test Enough is Enough’s transactions for
    authorizations, vouchers, and supporting documentation of the
    expense, we judgmentally selected 23 transactions from award 2007-
    JL-FX-K006 and 12 transactions from grant 2009-DD-BX-0093. We
    analyzed the transactions to determine if the transactions were
    properly authorized, classified, recorded, supported, and charged to
    the grant.




                                   37
   •   Indirect Costs. In the grantee’s requested and approved budget
       they requested only direct costs. However, an internal memorandum
       identified certain costs as indirect costs. 33 Specifically, the grantee
       uses an allocation base to allocate these costs to several cost
       objectives (awards or general management activities). We confirmed
       that OJP did not approve indirect costs in the awards audited, and the
       grantee did not have an approved federal indirect cost rate.

       The grantee indicated that these indirect costs were allocated to the
       DOJ awards and other cost objectives based on the percentage of
       labor allocated each month to the various cost objectives. We were
       unable to quantify the amount of indirect costs charged to the DOJ
       awards was appropriate because 1) they had no approved indirect
       costs, 2) they had no approved indirect cost plan, and 3) we could not
       verify the allocation basis (total labor costs).

   •   Accountable Property. We tested accountable property charged to
       the DOJ awards. Our tests included physical verification of computers
       and a determination of whether the computers were used for grant
       purposes.

   •   Program Income. We reviewed the final approved budget for each
       of the grants and noted no program income was included; however we
       observed the grantee was selling the DVD and workbooks. We
       requested sales information for the grantee’s DVD and workbook that
       DOJ funds help produce and the grantee indicated that they would not
       provide this information as OJP granted Enough is Enough with the
       right to license and copyright the Internet Safety 101 program, and as
       such it does not need to report the program income. We were
       therefore unable to test whether or not the grantee had program
       income.




       33
           A grantee memorandum dated May 27, 2010 identified Rent, Office Expenses,
Payroll Processing Fee, Payroll Taxes, Print and Reproduction, Program Expenses, Marketing
Supplies, Office Supplies, Program Supplies, Telephone, Utilities, Postage, and Shipping and
Delivery as indirect expenses. Further discussions with Enough is Enough personnel
confirmed that the although they were calling the expenses direct costs, they were treating
them as indirect costs.

                                            38
  •   Contractor Monitoring. We reviewed Enough is Enough’s policies
      and procedures and met with the grantee to discuss its monitoring and
      evaluation procedures. Enough is Enough stated that it is does not
      have a formalized performance review process, but relies on constant
      contact with its contractors to monitor their work.

In addition, we reviewed the timeliness and accuracy of Financial Status and
Progress Reports and reviewed the internal controls of the financial
management system.




                                     39
                                                          APPENDIX II

SUMMARY OF TESTING DRAWDOWN REQUESTS TO
  REPORTED GENERAL LEDGER EXPENDITURES

                                    Expenditures           Difference
  Date of         Amount of          per General          under/(over)
  Request          Request             Ledger                drawn

                         2007-JL-FX-K006
2/21/2008           $ 40,000        $        0                $  (40,000)
7/1/2008               40,000           44,894                      4,894
8/21/2008              40,000           46,557                      6,557
10/1/2008              40,000           34,830                    (5,170)
12/15/2008             40,000          102,601                     62,601
2/3/2009               40,000           58,801                     18,801
3/24/2009              40,000           45,885                      5,885
5/11/2009              40,000           33,397                    (6,603)
6/2/2009               40,000           36,450                    (3,550)
7/13/2009              40,000           45,583                      5,583
8/4/2009               40,000           44,356                      4,356
9/4/2009               40,000           40,749                        749
10/9/2009              40,000           19,073                   (20,927)
11/4/2009              50,000           31,306                   (18,694)
12/16/2009             40,000           35,494                    (4,506)
1/20/2010              40,000            9,614                   (30,386)
3/1/2010               40,000           27,054                   (12,946)
7/27/2010              40,000           51,068                     11,068
Totals             $ 730,000       $ 707,712                  $ (22,288)

                        2009-DD-BX-0093
12/11/2009         $   30,000      $   34,877                $     4,877
1/20/2010              30,000          34,519                      4,519
3/1/2010               30,000          31,253                      1,253
3/17/2010              70,000          11,579                   (58,421)
4/9/2010               70,000          22,887                   (47,113)
Totals             $ 230,000       $ 135,115                 $ (94,885)

Source: OJP drawdown information and Enough is Enough’s general ledger




                                       40
                                                                  APPENDIX III

         AUDITEE RESPONSE TO THE DRAFT REPORT



July 13, 2011

Troy M. Meyer
Regional Audit Manager
Washington Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
1300 North 17th Street, Suite 3400
Arlington, VA 22209


Dear Mr. Meyer,

Enclosed is the requested hard copy your review of EIE’s official written response to the OIG’s
draft audit report recommendations.

Contained within are the following:
          • EIE’s Response to the Draft Report--- 19 pages
          • Contents in zip file
                      EIE ‘s Financial Manual and Appendix A ---58 pages
                      24 Attachments with appropriate headers

 A PDF of the above documents has been sent to your email address as well as EIE’s Response
to the Draft Report in a Word version.

Please contact me with any questions.

Sincerely,



Donna Rice Hughes
CEO and President
Enough Is Enough
703-476-7894



                                               41
                                                                            July 13, 2011

Response to the Draft Report:

EIE has recently undergone two audits on 2009-DD-BX-0093 and 2007-JL-FX-
K006. Although EIE provided substantial information to the OJP audit team
during the process, we are providing additional information, explanations and
clarifications attached hereto in response to the remaining open items. During
this ongoing audit process, EIE’s small, five person team, key board members,
and professionals offering in-kind time have already invested at least 2,000 hours
totaling approximately $135,000. Additionally, EIE conservatively sent 800 pages
of data and documentation to the auditors. Prior to the audit, EIE had a series of
established policies, procedures and processes to track costs and report
progress on government-funded programs. In fact, we had been commended by
OJP for the quality and specificity of our semi-annual OJP progress reports.
However, it should be noted that prior to FY 2010, EIE did not have more than a
single active government grant at any one time. Additionally, all of EIE’s OJP
grants were the result of Congressional bi-partisan earmarks and all OJP grants
supported EIE’s mission of protecting children online including our Internet Safety
101SM Program initiatives. EIE only applied for and was awarded one competitive
grant in 2007 for $750,000 as the result of that year’s Congressional Continuing
Resolution, in which EIE was earmarked for 1.2 million dollars to support its
Internet Safety 101SM initiatives.

At the point where we received multiple grants, EIE proactively upgraded its
infrastructure to accurately support them, although a number of the new policies
and procedures were not fully documented until September 2010. The resulting
Financial Manual, prepared by staff and members of the Board, was then sent to
the audit team prior to the audit entrance meeting. As a result of audit findings
and recommendations, EIE has since amended its Financial Manual.
(Attachment 1)

In addition, we want to note that other than a few immaterial costs, all other costs
charged to the grants under audit were reasonable, accurate, allowable and
allocable to these grants. In light of the substantial additional value that EIE
provided to OJP for the moneys we received, we firmly believe that government’s
money has been well spent and the taxpayers well served. With respect to the
programs and products provided under these grants, our opinion as well as the
expressed opinions of numerous OJP staff and officials is that EIE has more
                                                                                   1

                                            42
than met OJP expectations on each of its grants. A letter from Ron Lainey, Associate
Administrator of the Child Protection Division at OJJDP, in the introduction to our 101
Program workbook/resource guide states:

“The Internet Safety 101SM curriculum completes a multi-year effort by Enough Is
Enough in partnership with the Office of Juvenile Justice and Delinquency prevention
(OJJDP) to create an educational program for parents, educators, and law enforcement
to protect children from the threats they face across all Internet-enabled devices […]
The 101 curriculum, which includes a DVD teaching series, accompanying workbook,
and website, enhances OJJDP’s current efforts to protect children from online
victimization by offering parents, educators, and law enforcement valuable information
and resources about the dangers associated with Internet use, as well as steps they
can take to reduce them. The four-part DVD is a comprehensive, “plug and play”
program with on-screen instructors that harnesses the power of a live safety teaching
without the need for trained facilitators.” (Attachment 23)

Also, EIE has received numerous awards and endorsements for the Internet Safety 101
program including the following:

   •   The 2010 Silver Telly Award for our four-part 101 DVD Teaching Series
   •   The 2009 Silver Davey Award in the Educational Film category

“Through the foresight and leadership of EIE, Internet Safety 101SM has established
itself as the benchmark for all other Internet safety programs.”
        – Steve F. Clementi, Director, Verizon External Affairs

“The Internet Safety 101SM Program is a tailor-made response to the Internet child
safety crisis facing our nation.”
       – President, Virginia PTA.

EIE has consistently over-delivered during the life of its grants. The initial EIE grant
request for its discretionary grant (2007-JL-FX-K006) was for $ 1.2 million; although EIE
only received $750,000. EIE still met and surpassed every deliverable mentioned in the
grant application. For instance, EIE originally promised only a 90-minute DVD, a simple
workbook, and an enhancement of its current www.enough.org website. Instead, EIE
delivered a comprehensive 4 part DVD teaching series (total length 2 hours, 17
minutes), shot in high-definition film, that incorporates documentary style video
vignettes woven into a live teaching series, a second “Special Features” DVD, a 250
page Workbook/Resource Guide, a new comprehensive website (http://www.Internet
Safety101.org), a Facilitator Guide, a Rules ‘N ToolsSM Booklet, and more.
                                                                                          2


                                           43
EIE has also leveraged DOJ resources many times over during the period under audit,
raising over $500,000 in funding and in-kind support from television networks, industry
partners like AOL, AT&T, MySpace and Google, and foundations like the Verizon
Foundation. EIE has a small, talented core team, which has enabled EIE to do much of
its work in-house, without contracting out. The final 2.0 version of the Internet Safety
101SM multi-media Program that EIE delivered in conjunction with its national program
launch in 2010 has provided extra value for every dollar spent by DOJ, creating an
innovative, one-of-a-kind educational resource that was above and beyond what was
promised, at less cost. EIE’s “best of breed” Internet Safety 101SM Program is the only
evidenced-based multi-media adult education program in the nation, perhaps the world.
The Government effectively received a Rolls Royce for the price of a Volkswagon!

Finally, EIE has leveraged its positive reputation with the media to bring significant,
national earned media coverage to the Internet Safety 101SM Program and DOJ’s efforts
to prevent Internet-initiated crime reaching approximately 30 million households per
year. This all-inclusive, one-stop-shop resource for parents, educators and law
enforcement, serves diverse adult communities, whether used as an individual learning
tool, or broadcast as an educational film night at a community theater or on national TV.

In the Draft audit report dated June 16, 2011, the audit team listed 18 items that
required an OJP remedy. We have specifically addressed each of the 18 items below:

      1.     Require Enough Is Enough to develop and implement written policies and
             procedures that ensure award expenses are accurately reported on its
             FSRs.

             Concur. EIE has developed and implemented a written policy and
             procedure to ensure award expenses are accurately reported on its FSRs.
             (Attachment 1, Policy # 9 C.)

             Furthermore, for the entire grant period under both grants, the overall
             variance, over and under, for each month between the FSR and the
             general ledger was $5,196, or .59% of total expenditures, clearly a de
             minimus variance. (Attachment 2)

      2.      Ensure EIE improves the reporting of performance measures to
             accurately report on separate objectives for each grant.



                                                                                        3


                                           44
Concur. Metrics and performance measures are invaluable. In fact, EIE
has been commended many times by our OJP grant manager for the
detail and specificity of our performance metrics as well as the
thoroughness of EIE’s semi-annual progress reports. In fact, at the
9/17/2009 site visit, our OJP grant manager requested a copy of EIE’s
internal “DOJ Grant Deliverable Tracking Form” to take back to the
Department as a recommendation for OJP to use in its training form online
because it would be helpful to OJP for other grantees performance
measures. However, there is always room for improvement.

EIE’s current Financial Manual specifically addresses the timely and
accurate reporting of performance measures for objectives for each grant.
(Attachment 1, Policy #9 D)

In addition, there are several issues which require further clarification:

There has been confusion regarding the issue of EIE’s semi-annual
progress reports and performance metrics (note EIE’s developed its own
performance chart, which is included in its progress reports) with the
separate issue regarding the DCTAT system which was brought up during
the 9/17/2009 site visit. Also, please note that EIE’s office manager did in
fact attend the recommended new grantee orientation training and
discussed with the trainer the issue that DCTAT measurements did not
apply to EIE. OJP grant manager, research coordinator and CSR
contractor did conclude that the existing metrics in the DCTAT system did
not apply to EIE.

EIE consistently and proactively followed up via emails and phone calls to
OJP contacts requesting the development of accurate performance
measurements in the DCTAT system that would apply to EIE grant
performance measures. That said, in the attached email (Attachment 3)
from OJP grant manager on 9/7/2010, the matter was considered to be
addressed stating:

“With regard to award 2007-JL-FX-K006, there is currently one issue open
under the site visit. The issue is related to performance measures for the
EIE program, and specifically it states that the Program Manager and EIE
would work together to develop more accurate performance measurement
information in collaboration


                                                                             4

                              45
with OJJDP's Research Coordinator and the performance measurement
contractor for OJJDP, CSR Incorporated. This issue has been addressed
by OJJDP through our work with CSR, Inc. to improve the options
available to grantees when selecting their performance measures at the
time they prepare their applications. However, you will still need to go into
GMS and follow the instructions in order to comply with the site visit
resolution requirements. You or your designated point of contact at the
time of the site visit should have received an e-mail asking you to log into
GMS and acknowledge the relevant issue for this award and submit a
response. Your response can be the one I stated previously that (This
issue has been addressed by OJJDP through our work with CSR, Inc. to
improve the options available to grantees when selecting their
performance measures at the time they prepare their applications). You
can enhance your response by including a statement that should EIE be
eligible to receive additional OJJDP funding in the future, it will select the
appropriate performance measures as described in the solicitation and
provided by OJJDP. Once you submit your response, the issue will be
closed and you will be able to proceed with the closeout.”

Additionally, on July 5, 2011, in response to additional follow up by EIE
regarding an outstanding DCTAT issue, a representative of CSR
Incorporated stated that:

“The project for which OJJDP funds are used does not provide activities
such that data can be gathered to answer the questions asked in the
DCTAT, in particular the core measures questions.”

Alternative measures for EIE to accurately report performance measures
via DCTAT were provided and approved by our OJP grant manager on
July 6, 2011 (See Attachment # 4). EIE will be using the amended DCTAT
performance metrics in future semi-annual progress reports.

Do not concur with the following auditor’s findings in Exhibit 3 of the audit
report:

Objective 3.3 in the ‘Grant 2007-JL-FX-K006 states “Participating
organizations will multiply the number of Internet Safety 101SM kits
developed and distributed 10 times using non-project funds“.


                                                                                5


                              46
     Therefore, EIE reported in our progress reports the total program units
     distributed using both grant and non-grant funds.

     Progress report #5 Grant 2007-JL-FX-K006 (7/1/2009-12/31/2009) stated
     EIE “distributed an additional 1,000 kits to adults, 500 funded through this
     grant, and another 500 funded through the Virginia Attorney General’s
     office”. EIE believes that this information evidences compliance with the
     grant and Objective 3.3.

     Progress report #6 Grant 2007-JL-FX-K006 (1/1/10 - 6/30/10) stated
     “2,000 program products distributed”. EIE inadvertently did not specify as
     in previous reports the amount of program units distributed with grant vs.
     non-grant funds. On 10/28/2010, EIE provided auditors a spreadsheet
     (Attachment 5) documenting that 838 kits were paid for with grant funds,
     the remaining balance with non-grant funds. EIE believes that this
     documentation evidences compliance with grant.

     Additionally, beginning in FY2011, EIE implemented a Product Giveaway
     Form to ensure proper tracking and accounting for product giveaways paid
     for under grant funds (Attachment 6).

     Progress report #2, Grant 2009-DD-BX-0093 (1/1/2010-6/30/2010) 175
     adults trained were claimed in 2 places because time was divided
     between both grants. EIE believed it was appropriate to report
     performance metrics across both grants since each grant funded in part
     the delivery and performance of such events. An alternative solution
     would be to report 175 adults in the 2009 grant.

     The above information was shared with the auditors along with additional
     supporting documentation.

3.   Remedy the unsupported $22,288 in overdrawn funds for grant 2007-JL-
     FX-K006.
     Concur. It was EIE’s practice to draw down the exact amount of funds
     each month based on its estimated monthly burn rate. This practice was
     initiated at the start of the grant and followed through until the end of the
     grant term without comment by OJP. There were no communications
     from OJP that there were issues with this practice. Even though $22,288
     was overdrawn in the course of
                                                                                     6


                                   47
     grant performance, the funds were ultimately used in future months to
     cover legitimate expenses. Attached is a copy of future drawdowns, which
     confirm that overdrawn funds were applied to actual expenditures later in
     the grant performance period. Any interest associated with overdrawn
     amounts would have been de minimus. (Attachment 7)

4.   Remedy the unsupported $94,885 in overdrawn funds from grant 2009-
     DD-BX-0093.

     Concur. It was EIE’s practice to draw down the exact amount of funds
     each month based on the estimated monthly burn rate. This practice was
     initiated at the start of the grant and followed through until the end of the
     grant term without comment by OJP. There were no communications
     from OJP that there were issues with this practice. Even though $94,885
     was overdrawn in the course of grant performance, the funds were
     ultimately used in future months to cover legitimate expenses. Attached is
     a copy of future drawdowns which confirms that overdrawn funds were
     applied to actual expenditures later in the grant performance period. Any
     interest associated with overdrawn amounts would have been de minimus.
     (Attachment 8)

5.   Require Enough Is EnoughSM to develop and implement procedures for
     reconciling drawdown requests to its general ledger.

     Concur. As noted in items 3 and 4 above, EIE created written policies and
     procedures and implemented such procedures to draw down funds in
     accordance with OJP’s Minimum Cash On Hand requirements, and
     reconcile them to its general ledger. (Attachment 1, Policy # 9, B)

6.   Remedy $46,010 in unallowable cost category transfers.

     Concur. There was a total of $121,010 in actual expenditures that
     exceeded the Award budget. 10% of the total award budget was $75,000,
     resulting in $46,010 in unallowable costs. This amount was attributed to
     certain independent contractors that were performing roles that were
     originally planned for in the Personnel cost line item in the OJP approved
     grant budget.




                                                                                  7


                                   48
     EIE will process and submit a final GAN requesting movement from the
     Personnel budget category to the Contractual budget category.

     In addition, EIE will follow GAN guidelines to alert OJP of any such future
     grant adjustment requests in a timely manner.

7.   Remedy the $250,056 in labor charges charged to grant 2007-JL-FX-
     K006.

     Do not concur. Annual salaries were accurate, reasonable, allowable and
     provided for by position in the approved grant budgets. The salary dollars
     recorded in the general ledger reconciled to the Federal Forms 941, W-2s
     and the W-3 with immaterial differences (Attachments 9 – 11).
     Compensation was approved by EIE’s Board of Directors during the
     budget process.

     During the time period in question for this audit, EIE maintained
     timesheets for all employees charging time to federal grants and all other
     classes of funding in QuickBooks. Upon further review at FYE 2009, EIE
     leadership determined that the cumulative spread of labor costs across
     the various classes needed to be adjusted, and proactively reviewed the
     timesheets and recorded the necessary journal entries adjusting the
     previous labor distribution. This spreadsheet was provided to audit team.
     A second updated spreadsheet was subsequently provided to the audit
     team finalizing the labor distribution, because the hours for 9 time cards
     were not included on the first spreadsheet.

     An overall analysis was performed (Attachments 12, 13), which shows an
     immaterial variance between original time sheets and the second
     reallocation spreadsheet that was provided to the audit team.

     The largest variance under this grant was related to Dona Jones, whose
     position as the Executive Assistant was budgeted for under the approved
     grant agreement. She inadvertently charged her time on her timesheets
     to EIE’s non-grant funds when it should have been charged to this grant.

     The Executive Assistant’s time was also validated and provided in the
     second reallocation spreadsheet. The final labor distribution will


                                                                                   8


                                  49
     reflect the correct labor cost for each grant in EIE’s income statement.

      Do not concur that pay stubs for the requested periods were not provided.
     EIE provided all such information as noted in the attached emails.
     (Attachment 14)

     Do not concur that EIE had “lobbying” costs. “Lobbying” consists of a
     communication addressed to specific legislation and an attempt to
     influence a legislator or legislative employee on that legislation (26 CFR
     56.4911-2(b)(1)(ii)). It does not include communicating with government
     officials or employees, or members or employees of a legislative body, in
     any other manner not intended to influence legislation (26 CFR 56.411-
     2(c)(2); see also, Lobbying Disclosure Act of 1995, 2 USC 1602(7)
     (“lobbying contact" only a communication to a covered executive or
     legislative branch official “with regard to the formulation, modification, or
     adoption of Federal legislation (including legislative proposals)”). No EIE
     employee or representative, including its Director of Communications,
     engaged in any “lobbying,” and accordingly no management and general
     account charges in FY 2009 included any “lobbying costs.”

     It should also be noted that EIE charges time spent on fundraising and
      development activities to non-grant funds.

8.   Remedy the $128,679 in labor charges charged to grant 2009-DD-BX-
     0093.

     Do not concur. Annual salaries were accurate, reasonable, allowable and
     provided for by position in the approved grant budgets. The salary dollars
     recorded in the general ledger reconciled to the Federal Forms 941, W-2s
     and the W-3 with immaterial differences (Attachments 9 – 11).
     Compensation was approved by EIE’s Board of Directors during the
     budget process.

     See detailed analysis. (Attachment 13)

9.   Require Enough Is EnoughSM improve its payroll procedures to ensure that
     timesheets are prepared and approved appropriately.




                                                                                     9


                                   50
      Concur. EIE amended our written policies and procedures to ensure that
      timesheets are prepared properly, timely, and independently reviewed and
      approved. (Attachment 1, Policy #20).

10.   Remedy $2,330 in unallowable other direct costs charged to the 2007-JL-
      FX-K006 grant.

      Concur. However, with respect to the $33 charge for mileage to OJP
      meeting with Mr. Flores, then current Administrator of OJJDP, no
      discussions of future employment with EIE took place. The purpose of the
      meeting was to show Mr. Flores the Internet Safety 101SM Program and to
      discuss the possibility of OJP funded television PSAs. After the scheduled
      meeting, EIE staff had lunch with Mr. Flores at which time he shared the
      multiple options he was considering regarding his future plans. During this
      conversation, the President of EIE expressed an interest in working with
      Mr. Flores if he decided to start a consulting practice which he mentioned
      as one of the future options he was considering. This information was
      previously shared with the Audit Team. That being said, even though the
      mileage charge was for OJP business, EIE will agree to charge the
      expense to non-grant funds if required.

      The remainder of the unallowable other direct costs of $2,297 as
      represented in Exhibit 9, have been or will be reimbursed or adjusted to
      non-grant funds. (Attachment 1, Policy #9 A5 – Appendix A)

11.   Require that Enough Is EnoughSM implements internal controls that ensure
      the grantee maintains adequate documentation to support allowable
      charges on DOJ awards including: (1) appropriate approvals on
      reimbursement requests; (2) maintaining invoices, receipts and receiving
      reports to support grant expenditures; (3) a revised travel reimbursement
      process in-line with OJP site visit requirements; (4) an objective method to
      allocate contractor and consultant expenses to cost objectives that can be
      independently verified; and (5) sufficient support for reallocation or
      adjusting entries including the methodology, rationale, approvals,
      supporting schedules, and supporting documentation such as invoices,
      timesheets and journal entries.


                                                                                 10




                                   51
      Concur. Prior to the time of the audit, and in certain cases, subsequent to
      the audit, EIE implemented the appropriate written procedures and
      internal controls to maintain adequate documentation to support allowable
      charges on DOJ awards, specifically:

      1) Appropriate approval on reimbursement requests (Attachment 1, Policy
         # 7 & 9)

      2) Maintaining invoices, receipts and receiving reports to support grant
         expenditures. (Attachment 1, Policy #9)

      3) EIE’s approved Travel Voucher in response to the OJP site visit was
         sent to auditors on October 21, 2010 as seen in Attachment 24. The
         policy addressing the matter is in Attachment 1, Policy # 21.

      4) An objective method to allocate contractor and consultant expenses to
         cost objectives that can be independently verified. (Attachment 1,
         Policy # 7)

      5) Sufficient support for reallocation or adjusting entries including
         methodology, rationale, approvals, supporting schedules and
         supporting documentation such as invoices, timesheets and journal
         entries. Specifically, EIE now has procedures to ensure that the
         appropriate allocation is correct at the initial transaction level, but in the
         rare case where an adjustment is necessary, proper initiation,
         authorization and supporting documentation will be required prior to
         such entry. This entry will be recorded during the current open monthly
         close cycle. (Attachment 1 Policy # 7, 9, 13 and 20)

12.   Remedy $69,175 in unsupported other direct costs charged to grant
      2007-JL-FX-K006.

      Do not concur with auditors finding in Exhibit 10.

      The Program Director/Operations Manager position,
      specifically Diane Brown, was originally included in the
      approved grant budget, by name, title and job description in
      the personnel cost line item. As previously communicated to

                                                                                    11



                                     52
the audit team, Ms. Brown performed her responsibilities as an
independent contractor vs. employee. This reclassification will be
handled by a GAN.

An analysis was subsequently performed to address the allocation to
the grant. After looking at the amount of time budgeted for the
Program Director/Operations Manager functions (including Ms.
Brown, Ms. Koh and Mr. Flores), EIE could have charged more time
to the grant budget but elected to allocate a portion of their time to
non-grant fund (Attachment 15).

Additionally, Ms Brown, Ms. Koh and Mr. Flores will be providing a
signed representation that all of the costs assigned to this grant
were accurate and complete. These representations will be
provided by August 1, 2011.Thus it is EIE’s position that the charges
to this grant are reasonable and allowable. (Regarding Ms. Koh and
Mr. Flores, see response in Recommendation #13).

Better Impressions (unclear allocation)- The 2007 approved grant
budget had direct expenses totaling $90,550 for the printing,
production, design and other associated costs of the workbook, kit
and DVD packaging. The $7,678 expense, as noted in Exhibit 10,
was charged against this grant. Additionally, another $6,799 was
charged to non-grant funds providing a cost benefit to DOJ since
entire amount could have been charged against the grant. EIE
proposes to charge $6,799 to the grant and therefore avoid the
allocation question altogether.

Bonnemaison ($7,947)- On October 5, 2010; The audit team was
advised that item # 8 on their transaction list which was described as
a Bonnemaison charge in the amount of $7,946.50 was actually
booked incorrectly in EIE’s QuickBooks system. The charge of
$7,946.50 was in fact for work performed by Better Impressions.
During the audit process, EIE provided the audit team with
appropriate

                                                                     12



                           53
documentation that confirmed that the $7,946.50 was for Better
Impressions.

Additionally, on October 28, 2010, an email to the audit team
included the following explanation:

The charge in the amount of $7,946.50 represented an initial deposit
that was sent to Better Impressions for the printing of 1,000 kits for
the Virginia AG, 500 of which were paid for by the AG. As a result,
only $4,123.76 should have been charged to the Discretionary
Grant. Therefore, a correction of $3,822.74 will be made to reduce
the expenses charged to the Discretionary Grant.

Ad Fero-(allocation issue)-Approved grant budget direct expensed
$56,160 for Communications Consultant which was to cover
Communications and PR expenses. The total Ad Fero contract was
for $46,450. EIE only charged $35,950 ($13,700 +$23,250) to the
grant and $9,500 to non-grant funds since EIE had other Internet
Safety 101SM sponsors, thus saving the government $9,500. In order
to avoid the allocation issue addressed by auditors, EIE proposes to
charge the $9,500 allowable expense to the grant for the total of
$46,450, which is still $9,710 under budget. Ad Fero’s contract,
including detailed scope of work, is attached and provides
supporting information. (Attachment 16)

Product Giveaway- EIE initially purchased product using non-grant
funds. In this case, specifically, EIE paid $38,000 to WMG for kits.
As product giveaway occured, $2,473 was charged to this grant.
(Attachment 17)

For remainder of items presented in Exhibit 10, the $846 amount for
travel and entertainment has been charged to non-grant funds
and/or reimbursed.

The remaining items including an Erie Insurance charge of $400,
$268 for local meals, $162 for Blackberry, $358 for

                                                                       13


                           54
computer repair and $43 for Internet charges will be adjusted to non-
grant funds even though all but local meal charges are allowable
and could be remedied with GANs.

With respect to independent contractors, EIE now has policies and
procedures in place that require such contractors to provide EIE with
time sheets and progress reports that specifically support allocations
to grants. (Attachment 1, Policy #7).

13.   Remedy $35,024 in unsupported other direct costs charged to
      grant 2009-DD-BX-0093.

Do not concur with certain findings in Exhibit 11.

The Program Director/Operations Manager position was originally
included in the approved grant budget in the personnel cost line
item.

An analysis was subsequently performed to address the allocation to
the grant. After looking at the amount of time budgeted for the
Program Director/Operations Manager functions (including Ms. Koh
and Mr. Flores), EIE could have charged more time to the grant
budget but elected to allocate a portion of their time to non-grant
funds. (Attachment 15)

Additionally, Ms. Koh and Mr. Flores (Hampton Roads LLC) will be
providing signed representations that all of the costs assigned to this
grant were accurate and complete. These representations will be
provided by August 1, 2011. Thus it is EIE’s position that the
charges to this grant are reasonable and allowable.

Byron Bartlett was named in the grant as an employee. He served
as an employee from June 2009 through March 1, 2010. He was
subsequently converted to a contractor during his final 2 months.
There was a specific consulting contract executed and a detailed
description of his work rendered

                                                                     14



                           55
    under the grant. Supporting documentation including Mr. Bartlett’s
    signed representation is included in Attachment 18.

    Therefore, a GAN will be requested to move such funds from the
    personnel category to the contractor category.

    With respect to the $2,500 of fulfillment and shipping costs that were
    questioned, EIE subsequently requested and received a GAN to
    remedy this charge.

,   CPA services that were questioned in the amount of $1,053 were
    originally in the grant budget under accounting services. EIE
    attempted to allocate such costs rather than charge the grant the full
    amount. EIE proposes to remedy the allocation issue by charging
    the grant the full amount.

    With respect to independent contractors, EIE now has policies and
    procedures in place that require such contractors to provide EIE with
    time sheets and progress reports that specifically support allocations
    to grants. (Attachment 1, Policy 7).

    14.   Remedy $101,858 in unsupported indirect costs allocated to the
          2007-JL-FX-K006 grant by ensuring that the grantee is allocating
          like and similar indirect costs using a consistent, verifiable and
          approved method and require that Enough Is Enough provides
          adequate documentation to support the $682 in unsupported
          indirect cost transactions.

    Do not concur. EIE disagrees with this finding and supplied the audit team
    our rationale as well as emails between EIE and grant manager regarding
    the issue of an indirect cost rate. In summary, all of EIE’s grant/earmark
    proposals were submitted with no indirect cost rate pool; All costs except
    rent were proposed to be charged directly to the appropriate grant or
    earmark. Our proposals were accepted by OJP and the grant/earmarks
    were issued without indirect cost pools. After further analysis of EIE’s
    methodology for charging the expenses in question, if an indirect cost pool
    method had been used for each grant/earmark, there would be an
    increase in such costs charged to each grant/earmark as currently
    presented

                                                                               15

                                 56
      in EIE’s financial books and records. The government actually
      received a benefit from EIE’s approach to charging such costs and
      allocating a portion of them to non-grant funds. (Attachment 19)

      The rent expense of $ 21,696 in the 2007 grant was inadvertently
      omitted since, at the time, EIE was initially operating virtually and
      later rented office space. This will be addressed in a final GAN.

      The Telly Award expense for $80 in Grant 2009-DD-BX-0093 was
      inadvertently charged to the grant, and has since been charged to non-
      grant funds.

15.   Remedy $47,662 in unsupported indirect costs charged to the
      2009-DD-BX-0093 grant by ensuring that the grantee is allocating
      like and similar indirect costs using a consistent, verifiable and
      approved method, and require that Enough Is Enough provides
      adequate documentation to support the $1,870 in unsupported
      indirect cost transactions.

      Do not concur. EIE disagrees with this finding and supplied the
      audit team our rationale as well as emails between EIE and grant
      manager regarding the issue of an indirect cost rate. In summary,
      all of EIE’s grant/earmark proposals were submitted with no indirect
      cost rate pool; All costs were proposed to be charged directly to the
      appropriate grant or earmark. Our proposals were accepted by OJP
      and the grant/earmarks were issued without indirect cost pools.
      After further analysis of EIE’s methodology for charging the
      expenses in question, if an indirect cost pool method had been
      used for each grant/earmark, there would be an increase in such
      costs charged to each grant/earmark as currently presented in
      EIE’s financial books and records. The government actually
      received a benefit from the EIE approach to charging such costs
      and allocating a portion of them to non-grant funds. (Attachment 20)

16.   Ensure that Enough Is EnoughSM implements and follows
      accountable property procedures that adequately track and
      safeguard items purchased with DOJ grant funds.



                                                                               16


                                     57
      Concur. Written policies and procedures have been implemented to
      ensure appropriate tracking and safeguarding of items purchased
      with grant funds. (Attachment 1, Policy # 8 &19).

17.   Remedy the $3,390 cost of unallowable computer leases.

      Concur. The computers were leased to save costs under the grant,
      as was explained to the auditors. EIE leased the computers under a
      previous OJP grant and the lease payments were carried over to
      the 2007 grant. However, the appropriate preapproval process was
      inadvertently not requested prior to extending the leases to the
      2007 grant. Since computer expenses are allowable, EIE will
      remedy this with a final GAN.

18.   Determine how much program income, if any, has been generated,
      ensure that Enough Is EnoughSM accurately allocates these funds
      to the grants in proportion to the amount of federal funds
      contributed to their production, report this income on Federal
      Financial Reports (SF-425s), and consider these funds as a factor
      in determining whether a Single Audit is required.

      Do not concur. OJP’s Financial Guide (Oct. 2009), provides
      that “Recipient shall retain all royalties received from
      copyrights or other works developed under projects,” (Part III,
      Chapter 4 (pg. 50)), and “unless otherwise specified in the
      award, the recipient/subrecipient may copyright any books,
      publications, films, or other copyrightable material developed
      or purchased as a result of award activities” Part III, Chapter 7
      (pg. 79). On October 29, 2008, in a meeting with its Grant
      Manager and supervisory personnel at OJP, EIE provided
      copies of its 101 Program kit and confirmed it had permission
      to sell the kit and process, account, and control all such
      revenue. Additionally, email communications between EIE and
      OJP evidence EIE’s pursuit to seek OJP guidance on the
      issues regarding copyright, commercial rights and program
      income. The following information was provided to auditors.
      (Attachments 21 & 22) Additionally, communications were
      provided to OJP on November 4, 2010 and June 10, 2011
      respectively in response to OJP grant manager’s request
                                                                           17

                                  58
    surrounding program income issues. Such responses include
    that EIE received significant funds to partially pay for the
    development of the Internet Safety 101SM Program and that all
    net income, if any, received from Program sales are put back
    into EIE and used to support EIE’s Internet Safety 101SM I
    nitiatives. Finally, the reproduction, distribution, and fulfillment
    costs for products sold by EIE are paid using non-grant funds.
    Only the reproduction, distribution and fulfillment cost of
    product giveaways are charged to corresponding OJP grants.

    CONCLUSION:

      EIE and its small staff of five deeply appreciate the opportunity
it has been afforded under its grants to partner with OJP. As
demonstrated throughout the audit process, and as noted herein, it
has been privileged to work in good faith with the OIG audit team.
EIE has been both challenged and educated throughout the
process, and has thus implemented many valuable improvements
in its operations, procedures, and financial controls.

     It is the sincere hope of EIE and its Board of Directors that
these final responses, and those given throughout the audit, will
provide the proper information for OJP to finalize this process and
remedy all open issues. As its record of work and coordination
with OJP establish, EIE has been (and will remain) proactive in
seeking guidance from OJP and will continue to provide any
requested information to assist OJP in finalizing this audit. Other
than a few immaterial costs, all other costs charged to the grants
under audit were reasonable, accurate, allowable and properly
allocable. EIE hopes (believes) that OJP will concur that based on
the substantial value (over the grant deliverable requirements) EIE
has provided to OJP under both grants, all grant monies have
been well spent and accounted for, and true (more than full) value
has been provided.

     EIE continues to remain a national pioneer and leader focused
on protecting children online and is the only organization that has
developed a comprehensive multi-media adult education
curriculum. Our Internet Safety 101SM program educates, equips
and empowers parents, educators and other caring adults with the
knowledge and resources needed to protect children from the
                                                                           19


                                 59
online dangers of pornography, sexual predators, cyberbullies and risks
related to social networking, online gaming and mobile devices.

      EIE is grateful to Congress for believing in us and providing
critical support over the years. We are also grateful to our team at
OJP for working with us over the years to develop, introduce,
implement, and roll out our award winning Internet Safety 101SM
Program. EIE’s goal is simple: NO CHILD WILL BE LEFT
UNPROTECTED. Together, we are making a difference for the sake of
the children.




                                                                       19




                              60
                                                                         APPENDIX IV

            OJP RESPONSE TO THE DRAFT REPORT
                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




July 20, 2011


MEMORANDUM TO:               Troy M. Meyer
                             Regional Audit Manager
                             Office of the Inspector General
                             Washington Regional Audit Office

                                    /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Office of Juvenile Justice and Delinquency Prevention Grants
                             Awarded to Enough is Enough, Great Falls, VA

This memorandum is in response to your correspondence, dated June 16, 2011, transmitting the
subject draft audit report for Enough is Enough. We consider the subject report resolved and
request written acceptance of this action from your office.

The report contains 18 recommendations and $801,357 in questioned costs. The following is the
Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For ease
of review, the recommendations are restated in bold and are followed by our response.

1.     We recommend that OJP require Enough is Enough to develop and implement
       written policies and procedures that ensure award expenses are accurately reported
       on its Federal Financial Reports.

       We agree with the recommendation. We will coordinate with Enough is Enough to
       obtain a copy of written procedures, developed and implemented, to ensure that Federal
       expenditures are accurately reported on future Federal Financial Reports (FFRs).



                                             61
2.   We recommend that OJP ensure that Enough is Enough improves the reporting of
     performance measures to accurately report on separate objectives for each grant.

     We agree with the recommendation. We will coordinate with Enough is Enough to
     obtain a copy of written procedures, developed and implemented, to ensure that
     performance measures data is accurately reported for each grant objective.

3.   We recommend that OJP remedy the $22,288 in unsupported overdrawn funds for
     cooperative agreement number 2007-JL-FX-K006.

     We agree with the recommendation. We will coordinate with Enough is Enough to
     obtain documentation to support that the $22,288 in excess funds from cooperative
     agreement number 2007-JL-FX-K006 were expended within 10 days of receipt from the
     U.S. Department of Justice (DOJ). If adequate documentation cannot be provided, we
     will request that Enough is Enough return any unexpended funds, including any interest
     income in excess of $250 annually, to the DOJ; and submit a revised final FFR for the
     agreement.

4.   We recommend that OJP remedy the $94,885 in unsupported overdrawn funds
     from grant number 2009-DD-BX-0093.

     We agree with the recommendation. We will coordinate with Enough is Enough to
     obtain documentation to support that the $94,885 in excess funds from grant number
     2009-DD-BX-0093 were expended within 10 days of receipt from the DOJ. If adequate
     documentation cannot be provided, we will request that Enough is Enough return any
     unexpended funds, including any interest income in excess of $250 annually, to the DOJ;
     and submit a revised final FFR for the grant.

5.   We recommend that OJP require that Enough is Enough develop and implement
     procedures for reconciling drawdown requests to its general ledger.

     We agree with the recommendation. We will coordinate with Enough is Enough to
     obtain a copy of written procedures, developed and implemented, to ensure that amounts
     requested for reimbursement are supported by adequate documentation and reconciled to
     the accounting records for each grant.

6.   We recommend that OJP remedy the $46,010 in unallowable cost category
     transfers.

     We agree with the recommendation. We will coordinate with Enough is Enough to
     remedy the $46,010 in questioned costs related to unauthorized transfers between account
     categories associated with cooperative agreement number 2007-JL-FX-K006. If the costs
     are determined to be unallowable, we will request that Enough is Enough return the funds
     to the DOJ, and submit a revised final FFR for the agreement.




                                           62
7.    We recommend that OJP remedy the $250,056 in labor charges charged to
      cooperative agreement number 2007-JL-FX-K006.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      remedy the $250,056 in questioned labor costs charged to cooperative agreement number
      2007-JL-FX-K006. If adequate documentation cannot be provided, we will request that
      Enough is Enough return the funds to the DOJ, and submit a revised final FFR for the
      agreement.

8.    We recommend that OJP remedy the $128,679 in labor charges charged to grant
      number 2009-DD-BX-0093.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      remedy the $128,679 in questioned labor costs charged to grant number
      2009-DD-BX-0093. If adequate documentation cannot be provided, we will request that
      Enough is Enough return the funds to the DOJ, and submit a revised final FFR for the
      grant.

9.    We recommend that OJP require Enough is Enough to improve its payroll
      procedures to ensure that timesheets are prepared and approved appropriately.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      obtain a copy of written procedures, developed and implemented, to ensure that
      employees’ timesheets are complete, accurate, and promptly approved by management.

10.   We recommend that OJP remedy the $2,330 in unallowable other direct costs
      charged to the 2007-JL-FX-K006 cooperative agreement.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      remedy the $2,330 in questioned costs related to unallowable direct costs charged to
      cooperative agreement number 2007-JL-FX-K006. If the costs are determined to be
      unallowable or adequate documentation cannot be provided, we will request that Enough
      is Enough return the funds to the DOJ, and submit a revised final FFR for the agreement.




                                             63
11.   We recommend that OJP require Enough is Enough to implement internal controls
      that ensure the grantee maintains adequate documentation to support allowable
      charges on DOJ awards including: (1) appropriate approvals on reimbursement
      requests; (2) maintaining invoices, receipts and receiving reports to support grant
      expenditures; (3) a revised travel reimbursement process in-line with OJP site visit
      requirements; (4) an objective method to allocate contractor and consultant
      expenses to cost objectives that can be independently verified; and (5) sufficient
      support for reallocation or adjusting entries including the methodology, rationale,
      approvals, supporting schedules, and supporting documentation such as invoices,
      timesheets and journal entries.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      obtain a copy of written procedures, developed and implemented, to ensure that adequate
      documentation is maintained to support allowable charges on DOJ awards, including the
      following: 1) appropriate approvals on reimbursement requests; 2) maintaining invoices,
      receipts, and receiving reports to support grant expenditures; 3) a revised travel
      reimbursement process in-line with OJP site visit requirements; 4) an objective method to
      allocate contractor and consultant expenses to cost objectives that can be independently
      verified; and 5) sufficient support for reallocation or adjusting entries including the
      methodology, rationale, approvals, supporting schedules, and supporting documentation
      such as invoices, timesheets and journal entries.

12.   We recommend that OJP remedy the $69,175 in unsupported other direct costs
      charged to cooperative agreement number 2007-JL-FX-K006.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      remedy the $69,175 in unsupported other direct costs charged to cooperative agreement
      number 2007-JL-FX-K006. If adequate documentation cannot be provided, we will
      request that Enough is Enough return the funds to the DOJ, and submit a revised final
      FFR for the agreement.

13.   We recommend that OJP remedy the $35,024 in unsupported other direct costs
      charged to grant number 2009-DD-BX-0093.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      remedy the $35,024 in unsupported other direct costs charged to grant number
      2009-DD-BX-0093. If adequate documentation cannot be provided, we will request that
      Enough is Enough return the funds to the DOJ, and submit a revised final FFR for the
      grant.




                                             64
14.   We recommend that OJP remedy the $101,858 in unsupported indirect costs
      allocated to the 2007-JL-FX-K006 cooperative agreement by ensuring that the
      grantee is allocating like and similar indirect costs using a consistent, verifiable and
      approved method and require that Enough is Enough provide adequate
      documentation to support the $682 in unsupported indirect cost transactions.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      remedy the $101,858 in unsupported indirect costs, including the $682 in unsupported
      indirect cost transactions, allocated to cooperative agreement number 2007-JL-FX-K006.
      If adequate documentation cannot be provided, we will request that Enough is Enough
      return the funds to the DOJ, and submit a revised final FFR for the agreement.

      We will also coordinate with Enough is Enough to obtain a copy of written procedures,
      developed and implemented, to ensure that the method for allocating like and similar
      indirect costs is consistent, verifiable, and approved by management, and the supporting
      documentation is maintained for future auditing purposes.

15.   We recommend that OJP remedy the $47,662 in unsupported indirect costs charged
      to the 2009-DD-BX-0093 grant, by ensuring that the grantee is allocating like and
      similar indirect costs using a consistent, verifiable and approved method, and
      require that Enough is Enough provides adequate documentation to support the
      $1,870 in unsupported indirect cost transactions.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      obtain documentation to support the $47,662 in unsupported indirect costs, including the
      $1,870 in unsupported indirect cost transactions, allocated to grant number
      2009-DD-BX-0093. If adequate documentation cannot be provided, we will request that
      Enough is Enough return the funds to the DOJ, and submit a revised final FFR for the
      grant.

16.   We recommend that OJP ensure that Enough is Enough implements and follows
      accountable property procedures that adequately track and safeguard items
      purchased with DOJ grant funds.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      obtain a copy of written procedures, developed and implemented, to ensure that all fixed
      assets purchased with Federal funds are properly accounted for and safeguarded.

17.   We recommend that OJP remedy the $3,390 cost of unallowable computer leases.

      We agree with the recommendation. We will coordinate with Enough is Enough to
      remedy the $3,390 in unallowable computer lease costs charged to cooperative agreement
      number 2007-JL-FX-K006. If the costs are determined to be unallowable, we will
      request that Enough is Enough return the funds to the DOJ, and submit a revised final
      FFR for the agreement.



                                             65
18.    We recommend that OJP determine how much program income, if any, has been
       generated, ensure that Enough is Enough accurately allocates these funds to the
       grants in proportion to the amount of Federal funds contributed to their
       production, report this income on Federal Financial Reports, and consider these
       funds as a factor in determining whether a Single Audit is required.

       We agree with the recommendation. We will coordinate with Enough is Enough to
       obtain documentation to determine how much program income, if any, has been
       generated on Federal funds awarded under cooperative agreement number
       2007-JL-FX-K006 and grant number 2009-DD-BX-0093. Additionally, we will require
       that Enough is Enough report the cumulative program amounts earned and expended on
       the final FFR for each award.

       We will also coordinate with Enough is Enough to obtain a copy of written procedures,
       developed and implemented, to ensure that any program income earned on future grant
       funds is properly allocated, recorded, and reported to the Federal awarding agency; and
       any amounts expended are included as a factor in determining whether a Single Audit is
       required.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Jeffrey W. Slowikowski
       Acting Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Marilyn Roberts
       Deputy Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Cecilia Dequela
       Program Manager
       Office of Juvenile Justice and Delinquency Prevention

       Richard Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20111015


                                              66
                                                      APPENDIX V

             OFFICE OF THE INSPECTOR GENERAL
            ANALYSIS AND SUMMARY OF ACTIONS
            NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to Enough is Enough and
OJP. Enough is Enough’s response is incorporated in Appendix III and OJP’s
response is incorporated in Appendix IV of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Analysis of Enough is Enough Response

       In response to our audit report, OJP concurred with our
recommendations and discussed the actions it will implement in response to
our findings. However, Enough is Enough disagreed with our conclusions
and recommendations and provided a 19 page response and over 100 pages
of attachments in response to our draft report. While we address Enough is
Enough’s comments as they pertain to each recommendation in the
Summary of Actions Necessary to Close the Report section of this Appendix,
we note that many of the attachments had been previously provided during
the audit.

      In its response, Enough is Enough states that other than a few
immaterial costs, all costs charged to the grants under audit were
reasonable, accurate, allowable, and allocable to the grants. However, we
do not believe that the sum of these questioned costs totaling over
$800,000 is a de minimus value. Enough is Enough also stated that it over
delivered on its grants and that the Government effectively received a Rolls
Royce for the price of a Volkswagen. Our audit report does not note any
issues with the quality of the products that Enough is Enough has developed
with grant monies and we are aware that the grantee received a “Telly
Award” since a portion of the award cost was charged to the grant.
However, as stated in this report, our audit concentrated on Enough is
Enough’s grant financial management.

      In response to many of our recommendations regarding unsupported
cost allocations, Enough is Enough proposes to rectify these unsupported
allocations by charging the full amount of the transaction to the grants
rather than the allocated amount. It explains that since the costs were
included in the budget they are approved as a direct charge to the award(s).
We cannot accept this remedy for supporting these charges because Enough

                                     67
is Enough did not provide sufficient documentation demonstrating the basis
for the allocation – whether a partial allocation or the full amount. The
grantee’s proposed resolution brings into question why other non-federal
grants or funds were not charged the full amount; especially given that the
grantee originally allocated portions of the transaction cost between DOJ
grants and other costs objectives included in the management and general
account. Prior to resolving these questioned costs, OJP should validate that
any additional charges clearly benefit only the cost objectives tied to each
grant and that the expenses are allowable, supported, and allocable to the
grant. Also, OJP should ensure that the total cumulative sum of any
proposed changes does not exceed the amount awarded to the grantee.

Summary of Actions Necessary to Close the Report

  1. Resolved. OJP concurred with our recommendation that Enough is
     Enough develop and implement written policies and procedures that
     ensure award expenses are accurately reported on its FFRs (SF-425).
     OJP stated in its response that it will coordinate with Enough is Enough
     to obtain a copy of written procedures, developed and implemented, to
     ensure that Federal expenditures are accurately reported on future
     Federal Financial Reports (FFRs).

     Enough is Enough concurred with our recommendation and has
     developed a written policy and procedure to ensure that award
     expenses are accurately reported on its SF-425s. We reviewed the
     grantee’s written policy and noted that the policy does not adequately
     describe how corrections will be communicated to OJP for prior periods
     after the SF-425 has been submitted. Additionally, Enough is
     Enough’s financial manual specifies that the SF-425 will be submitted
     to the granting agency within 45 days. According to OJP’s current
     requirements, the SF-425 is to be submitted within 30 days. These
     two areas need correction and clarification.

     Enough is Enough states that for the entire grant period under both
     awards, the overall variance, over and under, for each month between
     the FSR and the general ledger was $5,196, or .59 percent of total
     expenditures, a de minimus variance. We disagree that $5,196 is de
     minimus and how the grantee arrived at this variance. Enough is
     Enough calculated this variance by totaling the overall difference in
     expenditures for both awards. However, Enough is Enough is required
     to report expenditures by reporting period and in our audit of this area
     we noted that the grantee over reported expenditures by as much as
     $22,000 for the 2007 DOJ grant. As shown in the chart below, the
     difference between reported and actual expenditures is considerably

                                     68
larger than .59 percent in the majority of the reporting periods.
Accurate quarterly financial reporting is important, because it allows
the grant manager to assess the progress of the project.

          Summary of Review of FSR Accuracy


                           Expenditures           Differences
                                  Per General
    Report Period     Per FSR       Ledger         Dollar         Percentage
                            2007-JL-FX-K006
 10/1/07 - 12/31/07           -               -    -
 1/1/08 - 3/31/08       $5,350     $      5,250         $ (100)        1.9%
 4/1/08 - 6/30/08       61,877           39,644        (22,233)       56.1%
 7/1/08 - 9/30/08       16,879           59,475         42,596        71.6%
 10/1/08 - 12/31/08    103,988         124,513          20,525        16.5%
 1/1/09 - 3/31/09      111,285           95,586        (15,699)       16.4%
 4/1/09 - 6/30/09      103,354           97,354         (6,000)        6.2%
 7/1/09 - 9/30/09      113,180         107,667          (5,513)        5.1%
 10/1/09 - 12/31/09    111,951           93,206        (18,745)       20.1%
 1/1/10 - 3/31/10       36,002           36,002              0         0.0%
 4/1/10 - 6/30/10       23,750           23,750              0         0.0%
                           2009-DD-BX-0093
 10/1/09 - 12/31/09     46,910           48,758          1,848         3.8%
 1/1/10 - 3/31/10       84,755           82,880         (1,875)        2.3%
 4/1/10 - 6/30/10        62,262        62,262                0         0.0%
 Source: OIG analysis of Enough is Enough's accounting
 records and FSRs

This recommendation can be closed when we receive a revised
financial manual that clarifies how corrections will be communicated to
OJP for prior periods after the SF-425 has been submitted and the
correction of the due date of the SF-425s.




                                    69
2. Resolved: OJP concurred with our recommendation to ensure that
   Enough is Enough improve the reporting of performance measures to
   accurately report on separate objectives for each award. OJP states
   that it will coordinate with Enough is Enough to obtain a copy of
   written procedures, developed and implemented, to ensure that
   performance measures data is accurately reported for each award
   objective.

  Enough is Enough concurs with the recommendation for improving
  performance measures and provided procedures that will track the
  deliverables for each award using an internal tracking document and a
  database. All data submitted as a deliverable will be kept on file as
  backup information for the numbers provided.

  According to Enough is Enough, we were provided with all the
  information in its response; however, we did not receive a copy of the
  Product Giveaway Form, the e-mails from OJP, or a revised policy until
  after the draft report was released.

  Enough is Enough indicates that OJP’s open recommendation regarding
  performance measures is resolved. According to the grantee, the
  correspondence between Enough is Enough and OJP identifying the
  alternative measures to accurately report performance measures via
  the Data Collection and Technical Assistance Tool (DCTAT) was
  provided and approved by OJP on July 6, 2011; which, is a month after
  our exit conference and draft report were provided to the Enough is
  Enough. Therefore, while Enough is Enough indicates that we did not
  appropriately consider this information, we respectfully state the issue
  was not resolved at the time of the exit conference and draft report.
  We adjusted the final report to reflect that OJP approved alternative
  measures to report performance metrics.

  Enough is Enough did not concur with the audit findings presented in
  Exhibit 3 of the audit report. Enough is Enough states that grant
  objective 3.3 requires non-grant funds to be used to distribute kits.
  However, when listing the number of kits distributed under
  Government Performance Results Act measure no. 2, the grantee did
  specify that half the kits distributed were distributed under a different
  non-DOJ grant. Additionally, we could not verify the total number of
  kits distributed during this period to supporting documentation.
  Further, the spreadsheet provided supporting the distribution of the
  2,000 kits, likewise did not disclose that a significant portion of the kits
  were sold and not given away. The fact that Enough is Enough
  inadvertently did not disclose that a significant portion of kits were

                                   70
distributed using non-grant funds or were sold makes the
measurement statistics in the particular progress reports misleading.
The average person would assume that the progress report for a
specific grant would reflect what the specific grant monies paid for and
not what other funding sources paid for.

Additionally, the OJP Financial Guide requires that funding recipients
ensure that valid and auditable source documentation is available to
support all data collected for each performance measure specified in
the program solicitation. The grantee has developed a Product
Giveaway Form to ensure proper tracking and accounting for product
giveaways paid for with grant funds. We reviewed this form and note
that the form will track the number of products given away; however,
this information would still have to be verified to invoices or receipts
for shipping or fulfillment. Further, if the grantee is including the kits
as a deliverable, we believe it is appropriate to report any program
income on the sale of the kits on the SF-425. Program income should
be accurately allocated to the awards in proportion to the amount of
federal funds contributed to their production, reported as income on
SF-425s, and considered as a factor in determining whether a Single
Audit is required.

Finally, in reference to the training deliverables outlined in Exhibit 3
under grant 2009-DD-BX-0093, Enough is Enough states that it was
appropriate that the 175 adults trained were claimed on both the 2007
and 2009 DOJ awards because time was divided between both awards.
We discussed this issue with OJP during the audit. OJP stated that
grantees should not double count performance measures, or any other
data. We believe that the purpose of this performance measure is to
maximize the number of people trained. Double counting the
attendees provides inaccurate performance measurements and
misleads the reviewers on the total number of individuals trained.

This recommendation can be closed when we receive evidence that
Enough is Enough is accurately reporting on the separate objectives of
each award by ensuring that valid and auditable source documentation
is available to support all data collected for each performance measure
specified in the program solicitation.




                                 71
3. Resolved: OJP concurred with our recommendation to remedy the
   $22,288 in unsupported overdrawn funds for award number 2007-JL-
   FX-K006. OJP states that it will coordinate with Enough is Enough to
   obtain documentation to support that the $22,288 in excess funds
   from award number 2007-JL-FX-K006 were expended within 10 days
   of receipt from the U.S. Department of Justice (DOJ). If adequate
   documentation cannot be provided, OJP will request that Enough is
   Enough return any unexpended funds, including any interest income in
   excess of $250 annually, to the DOJ; and submit a revised final FFR for
   the agreement.

  Enough is Enough agreed with our finding and provided a spreadsheet
  outlining future drawdowns to confirm that overdrawn funds were
  applied to actual expenditures later in the grant performance period.
  We could not verify this spreadsheet because the grantee did not
  provide documentation, such as profit and loss statements, the general
  ledger, and the drawdown requests.

  This recommendation can be closed when we receive evidence that
  OJP has remedied the $22,288 in overdrawn funds for award number
  2007-JL-FX-K006.

4. Resolved: OJP concurs with our recommendation to remedy the
   unsupported $94,885 in overdrawn funds from grant 2009-DD-BX-
   0093. OJP states it will coordinate with Enough is Enough to obtain
   documentation to support that the $94,885 in excess funds from grant
   number 2009-DD-BX-0093 were expended within 10 days of receipt
   from the DOJ. If adequate documentation cannot be provided, OJP will
   request that Enough is Enough return any unexpended funds, including
   any interest income in excess of $250 annually, to the DOJ; and
   submit a revised final FFR for the grant.

  The grantee agrees with our finding and provided a spreadsheet
  outlining future drawdowns to confirm that overdrawn funds were
  applied to actual expenditures later in the grant performance period.
  We could not verify this spreadsheet because the grantee did not
  provide documentation, such as profit and loss statements, the general
  ledger, and the drawdown requests.

  This recommendation can be closed when we receive evidence that
  OJP has remedied the $94,885 in overdrawn funds from grant number
  2009-DD-BX-0093.




                                  72
5. Closed: This recommendation is closed. Enough is Enough provided
   written policies and procedures to draw down funds in accordance with
   OJP’s Minimum Cash On Hand requirements and provided written
   procedures for reconciling the drawdowns to the general ledger.

6. Resolved: OJP concurs with our recommendation to remedy $46,010
   in unallowable cost category transfers. OJP states it will coordinate
   with Enough is Enough to remedy the $46,010 in questioned costs
   related to unauthorized transfers between account categories
   associated with award number 2007-JL-FX-K006. If the costs are
   determined to be unallowable, OJP will request that Enough is Enough
   return the funds to the DOJ, and submit a revised final FFR for the
   agreement.

  Enough is Enough agrees with our recommendation and will submit a
  final GAN requesting funds to be moved from the personnel budget
  category to the contractual budget category. In addition, the grantee
  will follow GAN guidelines to alert OJP of any such future grant
  adjustment requests in a timely manner.

  This recommendation can be closed when we receive evidence that
  OJP has remedied the $46,010 in unallowable cost category transfers.

7. Resolved: OJP concurs with our recommendation to remedy the
   $250,056 in labor costs charged to award 2007-JL-FX-K006. OJP
   states it will coordinate with Enough is Enough to remedy the
   $250,056 in questioned labor costs charged to award number 2007-JL-
   FX-K006. If adequate documentation cannot be provided, OJP will
   request that Enough is Enough return the funds to the DOJ, and
   submit a revised final FFR for the agreement.

  Enough is Enough disagrees with our recommendation. According to
  Enough is Enough, the annual salaries were in line with the approved
  budget and the general ledger reconciles with the Federal Forms 941,
  W-2s, and the W-3 with immaterial differences. Further,
  compensation was approved by the grantee’s Board of Directors during
  the budget process. Enough is Enough also states that it maintained
  timesheets for all employees charging time to federal grants and all
  other classes of funding. However, Enough is Enough has not provided
  the Federal Forms 941, W-2s, or W-3, documentation showing that
  compensation was approved by the Board of Directors, or the missing
  timesheets described in this report. Because Enough is Enough did not
  provide the documentation, we cannot verify the salaries reconcile to
  the Federal forms 941, W-2 or W-3, or the Board of Directors’ approval

                                 73
of the salaries. Regardless, our issues with the grantee’s payroll costs
were with the specific charges to the DOJ awards and these overall
reconciliations do not address those concerns.

Enough is Enough stated that they determined that the cumulative
spread of labor costs across the various cost objectives needed to be
adjusted. However, Enough is Enough has never provided an
explanation of what caused the need for the reallocation. Enough is
Enough specified that they reviewed the timesheets for FY 2009 and
adjusted the labor distribution; however, the grantee completed a
revision to the FY 2009 reallocation of labor costs because they stated
the initial reallocation was missing 9 timesheets.

The OIG was provided with both versions of the 2009 reallocation and
the spreadsheet used to track the labor distribution for the FY 2010
reallocation. We noted numerous issues with the payroll process that
formed the basis for our questioned cost.

•   We attempted to test 2 non-consecutive pay periods to supporting
    documentation (timesheets, pay stubs, and general ledger).
    However, we noted problems with the internal controls over payroll.
    For instance, contrary to the grantee’s response, we were not
    provided pay stubs for 41 of the 50 timesheets we tested and we
    were not able to reconcile the timesheets provided to the general
    ledger entries we were trying to verify. We noted inappropriate
    approvals or employees approving their own timesheet; timesheets
    that were not completed appropriately (check marks instead of
    hours); and the payroll process described in procedures did not
    correspond to the entries in the general ledger.

•   The grantee stated that the reallocation was based on time
    recorded on timesheets of the employees. However, we noted
    differences when we compared the initial reallocation to the
    subsequent reallocation. If both reallocations were based on
    timesheets, we do not see how labor hours charged to cost
    objectives change. The only rationale provided for the difference
    between the first and second reallocation is nine missing
    timesheets; however, we noted differences in more than nine
    timesheets. Enough is Enough stated that the employee timesheets
    for employee DJ (see chart below) were all completed incorrectly
    and since their time was in the approved award budget they
    included all this person’s direct time to the DOJ award. Simply
    because an Executive Assistant was an approved position in the
    budget, does not mean that all time charges automatically are

                                74
      assigned to the DOJ award. This employee had charged their time
      to EIE category not the DOJ award. Given that all other employees
      charged at least a portion of their time to other cost objectives –
      besides the 2007 DOJ award – it is unreasonable and unsupported
      to reclassify all the employees time to the DOJ award.


  Hourly Differences Between the Versions of FY 2009 Salary Reallocations

Employee    Pay period    EIE   2007 DOJ    Other   Vacation    Holiday   Sick
DRH           10/3/2008    -4         -22      40           0         0      0
DRH          10/10/2008   -13         -27      40           0         0      0
DRH           11/7/2008    -5         -21      32           0         0      0
DRH          11/14/2008    -8         -25      31           0         0      0
CC            1/16/2009    12         -57      40           0         0      0
CC            1/23/2009     8         -48      40           0         0      0
CC            1/30/2009    12         -12       0           0         0      0
CC             2/6/2009     7          -7       0           0         8      0
CC            2/13/2009    17         -17       0           0         0      0
CC            2/20/2009    23         -23       0           0         0      0
CC            2/27/2009    44         -44       0           0         0      0
CC             3/6/2009    25         -25       0           0         0      0
CC            3/13/2009     8          -8       0           0         0      0
CC            9/25/2009    22          45       0           0         0      0
LS             7/3/2009     0           0       0          32         0      0
DJ**          10/3/2008     0          40       0           0         0      0
DJ**         10/10/2008     0          40       0           0         0      0
DJ**         10/17/2008     0          40       0           0         0      0
DJ**         10/24/2008     0          40       0           0         0      0
DJ**         10/31/2008     0          32       0           8         0      0
DJ**          11/7/2008     0          32       0           8         0      0
DJ**         11/14/2008     0          40       0           0         0      0
DJ**         11/21/2008     0          40       0           0         0      0
DJ**         11/28/2008     0          24       0           0         8      8
DJ**          12/5/2008     0          40       0           0         0      0
DJ**         12/12/2008     0          40       0           0         0      0
DJ**         12/19/2008     0          36       0           4         0      0
DJ**         12/26/2008     0           0       0          24         8      8
DJ**           1/2/2009     0          10      12           8         8      0
DJ**           1/9/2009     0           0      40           0         0      0
DJ**          1/16/2009     0          36       0           0         0      4
DJ**          1/23/2009     0          16       0          16         0      8
DJ**          1/30/2009     0          40       0           0         0      0




                                    75
  •   The timesheets used do not have a category entitled “Other” but
      the reallocation spreadsheet does have this cost objective. No
      rationale or evidence was provided to support how the hours were
      identified as “Other”.

  •   When we reviewed the FY 2010 reallocation spreadsheet, we noted
      23 instances where no labor charges were listed indicating the
      spreadsheet is incomplete. We also noted an employee who
      allocated their time using set percentages (10 percent to EIE; 30
      percent to 2007 DOJ award; and 60 percent to the 2009 DOJ
      award).

  Enough is Enough also stated that none of its employees or
  representatives, including its Director of Communications, engaged in
  any “lobbying,” and no management and general account charges in
  FY 2009 included any “lobbying costs.” However, the documentation
  provided to us in regards to the FY 2009 reallocation states “All of
  [Director of Communication] time for lobbying activities has been
  corrected.” This statement along with answers to questions during
  interviews led us to believe that an Enough is Enough employee was
  engaged in lobbying. Nevertheless, we revised the report language to
  reflect Enough is Enough’s ongoing congressional education efforts.

  This recommendation can be closed when we receive evidence that
  OJP has remedied the $250,056 in labor costs charged to award 2007-
  JL-FX-K006.

8. Resolved: OJP concurs with our recommendation to remedy the
   $128,679 in labor costs charged to grant 2009-DD-BX-0093. OJP
   states it will coordinate with Enough is Enough to remedy the
   $128,679 in questioned labor costs charged to grant number 2009-
   DD-BX-0093. If adequate documentation cannot be provided, OJP will
   request that Enough is Enough return the funds to the DOJ, and
   submit a revised final FFR for the grant.

  Enough is Enough disagrees with our recommendation, and provided
  the same response to recommendation no. 8 as recommendation no 7.
  Please see recommendation no. 7 for both the grantee response and
  our rebuttal.

  This recommendation can be closed when we receive evidence that
  OJP had remedied the $128,679 in labor costs charged to grant
  number 2009-DD-BX-0093.


                                 76
9. Resolved: OJP concurs with the recommendation requiring Enough is
   Enough to improve its payroll procedures to ensure that timesheets
   are prepared and approved appropriately. OJP states it will coordinate
   with Enough is Enough to obtain a copy of written procedures,
   developed and implemented, to ensure that employees’ timesheets are
   complete, accurate, and promptly approved by management.

   Enough is Enough provided amended written policies and procedures
   to improve its payroll procedures to ensure that timesheets are
   prepared and approved appropriately. However, we noted an
   inconsistency in the policies. Policy #14 implies that all timesheets are
   reviewed by the Executive Director, while Policy #20 states the
   Executive Director reviews all timesheets but their own – the President
   reviews the Executive Director’s timesheet.

   This recommendation can be closed when receive evidence that
   timesheet review inconsistency is resolved.

10. Closed: This recommendation is closed. We provided Enough is
    Enough with a list of unallowable expenses on November 17, 2010. In
    December 2010, Enough is Enough’s President reimbursed the spa,
    sushi, and charges related to meals in excess of per diem. Enough is
    Enough also provided adjusting journal entries showing that the
    remaining unallowable other direct costs had been reversed from the
    2007 award and charged to its management general account.

11. Resolved: OJP concurs with our recommendation to require Enough
    is Enough to implement internal controls that ensure the grantee
    maintains adequate documentation to support allowable charges on
    DOJ awards. OJP states it will coordinate with Enough is Enough to
    obtain a copy of written procedures, developed and implemented, to
    ensure that adequate documentation is maintained to support
    allowable charges on DOJ awards, including the following: (1)
    appropriate approvals on reimbursement requests; (2) maintaining
    invoices, receipts, and receiving reports to support grant expenditures;
    (3) a revised travel reimbursement process in-line with OJP site visit
    requirements; (4) an objective method to allocate contractor and
    consultant expenses to cost objectives that can be independently
    verified; and (5) sufficient support for reallocation or adjusting entries
    including the methodology, rationale, approvals, supporting schedules,
    and supporting documentation such as invoices, timesheets and
    journal entries.




                                    77
Enough is Enough concurs with the recommendation, stating that prior
to the audit, and in certain cases, subsequent to the audit, it
implemented the appropriate written procedures and internal controls
to maintain adequate documentation to support allowable charges on
DOJ awards.

As noted in our report, the grantee did not have a complete written
financial manual until September 2010. The grantee provided us with
updated policies. We reviewed the policies and noted the following
items that need clarification or amendment:

•   Policy No. 9 only specifies invoices and packing lists should be
    maintained to support grant expenditures. We believe
    documentation such as credit card statements, receipts
    corresponding to the credit card charges, and the reconciliation of
    the credit card charges to the receipts should also be maintained to
    support charges.

•   We reviewed the updated travel voucher form and corresponding
    procedures and believe the procedures need clarification. The
    procedures are not clear as to whether Enough is Enough requires
    the employee to complete the form twice (one form for
    authorization and one form for reimbursement) or if a single form is
    being used for both authorization and reimbursement. Additionally,
    if a single form is to be used for both authorization and
    reimbursement the form does not reflect: (1) that two approvals
    are needed - one for estimated expenses (i.e. a travel
    authorization) and one for incurred expenses (i.e. travel
    reimbursement); (2) a field to denote which amounts were
    estimated and which are actual charges incurred; and (3) the basis
    used for breaking out the costs to specific cost objectives. Enough
    is Enough’s policies also do not specify that travel documentation
    for both local and non-local travel, bills, receipts, employee
    reimbursements, etc. should be maintained to support grant
    expenditures.

•   The grantee’s policy to allocate contractor and consultant expenses
    to cost objectives does not specifically state that the hours must be
    itemized by each task or accomplishment, only that the contractor
    should document the month’s activities and hours worked for each
    funding class. The contractor policy should be clarified to ensure
    that contractors and consultants identify the hours worked on each
    task or accomplishment as well as by each cost objective.


                                 78
    Although Policies 7 and 20 address reallocation or adjusting entries,
    they do not mention either reallocation or adjusting entries. Policy
    No. 9 merely states that if a correction is required (in relation to a
    SF-425 report), it will be reflected in the current accounting period,
    but does not specify the required support (schedules, approvals,
    invoices, timesheets or journal entries) required for reallocation or
    adjusting entries or specify that employees need to document the
    methodology and rationale for the reallocation or adjusting entries.
    Further, Policy No. 9 specifies that at the end of each quarter, the
    general ledger will be locked, which conflicts with Policy No. 13,
    which states that the grantee will lock the general ledger each
    month.

•   Policy No. 13 states that “purchases or monthly recurring charges
    such as rent, supplies, utilities and other consumables for the entire
    organization are booked to the National class and allocated based
    on the percentage of employee labor costs for each funding class
    (grant, earmark, M&G, etc) as compared to the total employee
    labor costs. Additionally, Enough is Enough tests the quarterly
    cumulative totals against the cumulative labor hours to identify any
    deviations.”

    The methodology described is an indirect cost allocation. According
    to 2 CFR Part 215, Uniform Administrative Requirements for Grants
    and Agreements with Institutions of Higher Education, Hospitals,
    and other Non-profit Organizations (formerly OMB Circular A-110),
    indirect costs are those that have been incurred for common or
    joint objectives and cannot be readily identified with a particular
    final cost objective such as a grant or contract. Enough is Enough
    indicates that their indirect costs include purchases, and monthly
    recurring charges such as rent, supplies, utilities, and other
    consumables. Because these indirect costs cannot be easily
    allocated to specific projects or activities, organizations need to
    establish and seek approval for an indirect cost rate with their
    cognizant federal agency to receive payment for indirect expenses.
    Additionally, the Financial Guide states that if a recipient does not
    have an approved indirect cost rate, funds budgeted for indirect
    costs cannot be recoverable until a rate is approved.

In order to close this recommendation, Enough is Enough needs to
clarify or revise the specific polices noted above. Additionally, if the
grantee is intending to allocate costs to DOJ awards using the indirect
cost method described in the procedures, we believe they need to


                                 79
   request approval of the indirect cost rate by the cognizant federal
   agency.

12. Resolved: OJP concurs with our recommendation to remedy $69,175
    in unsupported other direct costs charged to award 2007-JL-FX-K006.
    OJP states it will coordinate with Enough is Enough to remedy the
    $69,175 in unsupported other direct costs charged to award number
    2007-JL-FX-K006. If adequate documentation cannot be provided,
    OJP will request that Enough is Enough return the funds to the DOJ,
    and submit a revised final FFR for the agreement.

   Enough is Enough does not concur to the recommendation and
   addressed the items individually:

   Allocation of Program Director/Operations Manager ($6,000 and
   $6,000)

   Enough is Enough stated that the Program Director/Operations
   Manager position was originally included in the approved award budget
   and was listed by name, title and job description in the personnel cost
   line item, but performed her responsibilities as an independent
   contractor. Enough is Enough stated that it will use a GAN to handle
   this reclassification.

   While the 2009 grant lists the Program Director/Operations Manager
   position line item by name, the 2007 award budget does not, and both
   awards incurred charges for this position.

   Enough is Enough also stated that it analyzed the allocations charged
   to the award for the Program Director/Operations Manager functions,
   and could have charged more time to the award, but elected to
   allocate a portion of their time to non-grant funds. We find this
   explanation problematic because the job functions of this position
   easily benefit other organizational cost objectives. Additionally, the
   work statements from these contractors do not itemize a list of tasks
   performed nor the work hours spent on each of these tasks, which
   would impair the grantee’s ability to quantify the hours charged to the
   grants or otherwise support the idea that more time could have been
   charged. Therefore, we believe it is unreasonable and unsupported
   that the grantee could have charged more time to the award, simply
   because the award had an approved budget that was higher than the
   actual costs charged.




                                   80
In addition, Enough is Enough provided a signed representation from
the 3 contractors that all of the costs assigned to the award were
accurate and complete. We reviewed the representation letters and
noted that these letters were blanket statements that outlined the job
functions for the periods of the contracts. The letters did not include
an itemized list of tasks and hours spent on each task; therefore, we
could not independently verify that the charges were reasonable in
relation to the services rendered. Enough is Enough has not provided
any documentation that itemizes a listing of tasks the individuals
performed that were directly related to the 2007 award or any
breakout of the time spent on each task. Therefore, these
representation letters do not support the charges to the award.

Better Impressions ($7,678)

Enough is Enough’s proposed resolution is to charge the entire invoice
to the DOJ award rather than a partial allocation. As noted in the
report, the reimbursement request contained numerous unexplained
cross outs, the description from the “Write Check” printout did not
correspond with the amounts charged to the DOJ award, and like and
similar charges were allocated inconsistently. Additionally, Enough is
Enough is selling the DVD and toolkit or using the deliverable on other
awards (Verizon, Virginia and Maryland District Attorney grants). If
Enough is Enough is selling the DVD and tool kits outside of the DOJ
awards, those outside projects should incur a proportional allocation of
the expenses for developing the DVDs and tool kits. Therefore, it does
not appear reasonable to allocate 100 percent of the costs to the DOJ
awards when other awards are benefiting from the development costs
as well. Therefore, Enough is Enough’s response indicating they will
allocate 100 percent of the invoice to the DOJ award is still
unsupported.

Bonnemaison ($7,947)

Enough is Enough stated that it incorrectly booked this charge to a
different vendor and they will credit half of the invoice cost to the DOJ
award since half of the invoice is directly related to a different award.
While we acknowledge that Enough is Enough tried to explain this
accounting error, it still could not support this transaction. Enough is
Enough states that the charge was an initial deposit that was sent to
the vendor for the printing of 1,000 kits for the Virginia Attorney
General, 500 of which were paid for by the Attorney General; the other
500 paid for by the DOJ award. We were provided a credit card
statement that showed that $7,947 was paid to the vendor on

                                81
09/01/09, but the invoice provided does not show that this amount
was credited as a deposit for printing 1,000 kits and the amount of the
deposit is different from the amount charged to the credit card.
Further, the reimbursement request does not match any of the
amounts on the invoice or the general ledger; the invoices from the
vendor do not match the charges to the general ledger; and the “Write
Check” does not match the general ledger charges. Therefore, we
cannot be certain that the $7,947 was used to purchase kits and this
entire amount is still unsupported.

Ad Fero ($37,000)

Enough is Enough’s proposed resolution is to charge an additional
$9,500 to the DOJ award in addition to the $37,000 already allocated.
Enough is Enough states that it only charged $35,950 (this amount
should be $37,000 according to the general ledger information
provided during the audit) to the grant and charged $9,500 to non-
grant funds since Enough is Enough had other Internet Safety 101
sponsors. The grantee proposes charging the remaining $9,500 to the
grant for the total of $46,450 (this should be $46,500 according to the
terms of the contract). According to 2 CFR Part 230, direct costs are
those that can be identified specifically with a particular final cost
objective. Based on Enough is Enough’s response, the Ad Fero
contract cannot be solely identified to the DOJ award as Enough is
Enough had other sponsors; therefore, the grantee’s proposed
resolution is not reasonable or in accordance with 2 CFR Part 230.
Furthermore, the services described in the scope of work for the Ad
Fero contract benefit more than just the 2007 award cost objectives.

Product Giveaway ($2,473)

Enough is Enough states that it charged the grant $2,473 for product
giveaway as it occurred and it provided a spreadsheet it used to track
these giveaways. The spreadsheet provides an inventory listing and
the calculated costs of these giveaways. However, Enough is Enough
did not provide verifiable documentation as to the cost value of each of
these products or otherwise demonstrate that these kits were actually
given away. The grantee also did not provide a reimbursement
request form that would demonstrate that this charge was properly
authorized according to the Enough is Enough policies and procedures.
Therefore, $2,473 remains unsupported.




                               82
Travel and Entertainment

Enough is Enough stated that the $846 travel and entertainment has
been charged to non-grant funds and/or reimbursed. However, the
grantee has not provided any evidence, such as a general ledger or
cashed check, that these charges have been remedied. This item can
be closed when we receive documentation that the grantee credited
the 2007 DOJ award for these expenses.

Blackberry ($162), Erie Insurance ($400), Local meals ($268),
Computer repair ($358), and Internet charges ($43)

Enough is Enough states the charges for the insurance, local meals,
Blackberry purchase, computer repair, and internet charges will be
adjusted to non-grant funds. Enough is Enough stated that all but
local meal charges are allowable and could be remedied with GANs.
While Enough is Enough implies that the audit questioned the
insurance, Blackberry, computer repair, and internet costs as
unallowable, we questioned the costs because Enough is Enough either
could not provide documentation to support the allocation of the costs
to the DOJ award or did not provide documentation supporting the
costs. These items can be closed when we receive documentation
supporting Enough is Enough removed the costs from the DOJ award.

Enough is Enough states that they now have policies and procedures in
place that require independent contractors to provide timesheets and
progress reports that specifically support allocations to grants. We
reviewed these policies and Enough is Enough now requires that
monthly progress reports outlining the activities and accomplishments
and the hours worked for each funding class be submitted with the
monthly invoice. However, the grantee’s policy to allocate contractor
and consultant expenses to cost objectives does not specifically state
that the hours must be itemized by each task or accomplishment, only
that the contractor should document the month’s activities and hours
worked for each funding class.

This recommendation can be closed when we receive evidence that
OJP has remedied $69,175 in unsupported other direct costs charged
to award 2007-JL-FX-K006, and Enough is Enough has clarified its
policies to ensure that contractors and consultants identify the hours
worked on each task or accomplishment as well as by each cost
objective.




                               83
13. Resolved: OJP concurs with our recommendation to remedy $35,024
    in unsupported other direct costs charged to grant 2009-DD-BX-0093.
    OJP states it will coordinate with Enough is Enough to remedy the
    $35,024 in unsupported other direct costs charged to grant number
    2009-DD-BX-0093. If adequate documentation cannot be provided,
    OJP will request that Enough is Enough return the funds to the DOJ,
    and submit a revised final FFR for the grant.

   Enough is Enough does not concur with the recommendation and
   addressed the items individually:

   Hampton Roads, LLC and Julie Koh Consulting ($3,960, $3,960,
   $3,450, $3,450, $3,450 and $3,537)

   Enough is Enough stated that it analyzed the allocations charged to
   the grant for the Program Director/Operations Manager functions
   (three contractors filled this role during the 2007 and 2009 award
   periods) and could have charged more time to the grant budget, but
   elected to allocate a portion of their time to non-grant funds. We find
   this explanation problematic because the job functions of this position
   easily benefit other organizational cost objectives. Additionally, the
   work statements from these contractors do not itemize a list of tasks
   performed or the work hours spent on each of these tasks, which
   would impair the grantee’s ability to quantify the hours charged to the
   awards or otherwise support the idea that more time could have been
   charged. Therefore, we believe it is unreasonable and unsupported
   that Enough is Enough could have charged more time to the grant
   simply because the grant had an approved budget that was higher
   than the actual costs charged.

   In addition, Enough is Enough provided signed representation letters
   from the 3 contractors that all of the costs assigned to this grant were
   accurate and complete. We reviewed the representation letters
   Enough is Enough received from the three contractors and note that
   these letters were blanket statements that outlined the job functions
   for the periods of the contracts. The letters did not include an
   itemized list of tasks and hours spent on each task; therefore, we
   could not independently verify the charges were reasonable in relation
   to the services rendered. Enough is Enough has not provided any
   documentation that itemizes a listing of tasks the individual performed
   that were directly related to the 2009 award or any breakout of the
   time spent on each task. Therefore, the representation letters do not
   support the charges to the award.


                                   84
Byron Bartlett Consulting ($4,235 and $5,220)

Enough is Enough stated that it will request a GAN to move charges
for consulting services related to the Byron Bartlett Consulting from
the personnel category to the contractor category. In its response,
Enough is Enough provided a signed statement from this consultant
stating that the charges are accurate and complete. However, neither
the consultant nor Enough is Enough provided any additional support
for the allocation of consulting fees to the 2009 DOJ award. Therefore,
these charges are still considered unsupported.

Fulfillment ($2,500)

Enough is Enough stated that it had requested and received a GAN to
remedy the $2,500 fulfillment and shipping costs that were questioned
as unsupported. However, Enough is Enough did not provide the GAN.
Additionally, we need verifiable support for the allocation of funds to
show that these charges are direct costs that can be tied to the 2009
DOJ grant cost objectives. Therefore, these fulfillment and shipping
costs remain unsupported.

CPA Services ($1,053)

Enough is Enough stated that the $1,053 in CPA services that were
questioned were originally budgeted under accounting services and
now proposes to remedy the unsupported allocation by charging the
full amount of the invoice rather than an partial allocation of the
invoice cost. The CPA services provided include payroll services,
vendor payments, financial reporting, and tax preparation. Given
Enough is Enough has specified that they have other funding sources
(Virginia PTA, Verizon, Maryland PTA) besides DOJ awards, it is
unreasonable to allocate all the costs of CPA services to only the DOJ
award. Therefore, Enough is Enough has not provided any
documentation to remedy this questioned cost.

Enough is Enough states that they now have policies and procedures in
place that require independent contractors to provide timesheets and
progress reports that specifically support award allocations. We
reviewed these policies and Enough is Enough now requires that
monthly progress reports outlining the activities and accomplishments
and the hours worked for each funding class be submitted with the
monthly invoice. However, the policy to allocate contractor and
consultant expenses to cost objectives does not specifically state that
the hours must be itemized by each task or accomplishment, only that

                               85
   the contractor should document the month’s activities and hours
   worked for each funding class.

   Enough is Enough did not provide any response concerning the $29 in
   questioned Service Charges or the $180 in Cleaning Services.

   This recommendation can be closed when we receive evidence that
   OJP has remedied $35,024 in unsupported other direct costs charged
   to grant 2009-DD-BX-0093, and that the contractor policy was clarified
   to ensure that contractors and consultants identify the hours worked
   on each task or accomplishment as well as by each cost objective.

14. Resolved: OJP agrees with our recommendation to remedy $101,858
    in unsupported indirect costs allocated to the 2007-JL-FX-K006 award
    by ensuring that the grantee is allocating like and similar indirect costs
    using a consistent, verifiable and approved method and require that
    Enough is Enough provide adequate documentation to support the
    $682 in unsupported indirect cost transactions. OJP states it will
    coordinate with Enough is Enough to remedy the $101,858 in
    unsupported indirect costs, including the $682 in unsupported indirect
    cost transactions, allocated to award number 2007-JL-FX-K006. If
    adequate documentation cannot be provided, OJP will request that
    Enough is Enough return the funds to the DOJ, and submit a revised
    final FFR for the agreement.

   OJP will also coordinate with Enough is Enough to obtain a copy of
   written procedures, developed and implemented, to ensure that the
   method for allocating like and similar indirect costs is consistent,
   verifiable, and approved by management, and the supporting
   documentation is maintained for future auditing purposes.

   Enough is Enough does not concur with the recommendation and
   provided us correspondence between Enough is Enough and OJP.
   Enough is Enough also provided an analysis of its indirect costs in an
   attempt to show cost savings to the federal government. Additionally,
   the grantee states that the rent expense of $21,696 was inadvertently
   omitted because Enough is Enough was initially operating virtually and
   later rented office space. Enough is Enough proposes correcting this
   issue by filing a GAN.

   Enough is Enough does not address the fact that according to the OJP
   Financial Guide, in order to receive indirect costs, they need an
   approved indirect cost plan. In addition, the analysis Enough is
   Enough provided regarding indirect costs is flawed because it relies on

                                    86
   the labor allocation that we deemed unsupported and included items in
   the indirect cost pool that were not specified in the approved budget
   such as Rent, Office Expenses, Payroll Processing Fee, Program
   Expenses, Marketing Supplies, Program Supplies, and Shipping and
   Delivery.

   While we agree that Enough is Enough provided us an excerpt of an e-
   mail sent to OJP, we were not provided the full e-mail or any OJP
   response to the e-mail that demonstrated approval of Enough is
   Enough’s methodology for indirect costs. Further, Enough is Enough
   did not specifically state how it will resolve the inconsistent or
   unsupported allocations for the $399 for office supplies or the $283 for
   space storage.

   This recommendation can be closed when we receive evidence that
   OJP has remedied the $101,858 in indirect costs charged to award
   2007-JL-FX-K006 and when we have received adequate documentation
   that supports the $682 in questioned indirect costs.

15. Resolved: OJP concurs with our recommendation to remedy $47,662
    in unsupported indirect costs charged to the 2009-DD-BX-0093 grant
    by ensuring that the grantee is allocating like and similar indirect costs
    using a consistent, verifiable and approved method, and require that
    Enough is Enough provides adequate documentation to support the
    $1,870 in unsupported indirect cost transactions. OJP states it will
    coordinate with Enough is Enough to obtain documentation to support
    the $47,662 in unsupported indirect costs, including the $1,870 in
    unsupported indirect cost transactions, allocated to grant number
    2009-DD-BX-0093. If adequate documentation cannot be provided,
    OJP will request that Enough is Enough return the funds to the DOJ,
    and submit a revised final FFR for the grant.

   Enough is Enough disagrees with our recommendation. The grantee
   response to recommendation no. 15 is the same as recommendation
   no 14. Please see recommendation no. 14 for both the grantee
   response and our rebuttal. Also, Enough is Enough has not stated how
   it will remedy the $1,870 in unsupported indirect costs.

   This recommendation can be closed when we receive evidence that
   OJP has remedied the $47,662 in indirect costs charged to grant 2009-
   DD-BX-0093 and when we have received adequate documentation that
   supports the $1,870 in questioned indirect costs.




                                    87
16. Closed: This recommendation is closed. Enough is Enough provided
    written policies and procedures to ensure appropriate tracking and
    safeguarding of items purchased with grant funds. Our review of
    these procedures found that the grantee will conduct a property
    inventory every two years and that equipment purchased with Federal
    Funds will be labeled with an identifying number cross referenced to
    the property inventory listing, grant number, and funding source. The
    policies specify that the Executive Director is primarily responsible for
    ensuring that proper financial management procedures are maintained
    and that the policies of the Board are carried out.

17. Resolved: OJP concurs with our recommendation to remedy $3,390
    cost of unallowable computer leases. OJP states it will coordinate with
    Enough is Enough to remedy the $3,390 in unallowable computer
    lease costs charged to award number 2007-JL-FX-K006. If the costs
    are determined to be unallowable, OJP will request that Enough is
    Enough return the funds to the DOJ, and submit a revised final FFR for
    the agreement.

   Enough is Enough agrees with our recommendation and will file a GAN
   to remedy these computer expenses. Enough is Enough stated that
   the computers were leased to save costs under the grants, but has
   provided no evidence that the cost of leasing the computers would
   have been less expensive than purchasing the computers as approved
   in the grant budget. In fact, our audit analysis of lease costs showed
   that Enough is Enough paid more for the leased equipment than the
   approved purchase price of the computers.

   This recommendation can be closed when we receive evidence that
   OJP has remedied the $3,390 in unallowable computer leases.

18. Resolved: OJP concurs with our recommendation to determine how
    much program income, if any, has been generated, ensure that
    Enough is Enough accurately allocates these funds to their grants in
    proportion to the amount of federal funds contributed to their
    production, report this income on Federal Financial Reports (SF-425s),
    and consider these funds as a factor in determining whether a Single
    Audit is required. OJP states it will coordinate with Enough is Enough
    to obtain documentation to determine how much program income, if
    any, has been generated on Federal funds awarded under award
    numbers 2007-JL-FX-K006 and 2009-DD-BX-0093. Additionally, OJP
    states it will require that Enough is Enough report the cumulative
    program amounts earned and expended on the final FFR for each
    award. OJP will also coordinate with Enough is Enough to obtain a

                                    88
copy of written procedures, developed and implemented, to ensure
that any program income earned on future grant funds is properly
allocated, recorded, and reported to the Federal awarding agency; and
any amounts expended are included as a factor in determining
whether a Single Audit is required.

Enough is Enough disagrees with our recommendation stating that it
confirmed permission with OJP to sell the kit and process, account, and
control all such revenue. Enough is Enough stated that it provided us
with its e-mail communications with OJP as evidence that it sought OJP
guidance on the issues regarding copyright, commercial rights, and
program income. We agree that Enough is Enough provided the
referenced e-mails. However, these e-mails only show that the
Enough is Enough intended to ask about OJJDP’s protocol or
requirement for reporting any revenues generated by Enough is
Enough at an upcoming meeting with OJP. Enough is Enough did not
provide any documentation showing that OJP concurred that program
income did not have to be recognized on the DOJ awards or that OJP
approved a deviation from the OJP Financial Guide for reporting
program income.

Enough is Enough stated that the reproduction, distribution, and
fulfillment costs for products it sold are paid using non-grant funds and
that only the reproduction, distribution, and fulfillment cost of product
giveaways are charged to corresponding OJP grants. However, DOJ
funds were used in the development of the kits – non-federal sources
did not fund 100 percent of the development of the kits. As such, it
appears reasonable and in accordance with OJP policy for DOJ to
receive a proportional share of the revenues earned in the sale of the
kits. That is why we recommended OJP determine how much program
income, if any, the grantee has generated and ensure it was
appropriately accounted for.

The Financial Guide states that all income generated as a direct result
of an agency-funded project shall be deemed program income. The
Federal portion of program income must be accounted for up to the
same ratio of Federal participation as funded in the project or
program. For example:

1. A discretionary project funded with 100 percent Federal funds must
   account for and report on 100 percent of the total program income
   earned. If the total program income earned was $20,000, the
   recipient must account for and report the $20,000 as program
   income on the Financial Status Report.

                                89
2. If a recipient was funded by block/formula funds at 75 percent
   Federal funds and 25 percent non-Federal funds and the total
   program income earned by the grant was $100,000, $75,000 must
   be accounted for and reported, by the recipient, as program income
   on the Financial Status Report.

Enough is Enough stated that all net income received from program
sales are put back into Enough is Enough and used to support its
Internet Safety 101 initiatives and communicated this information to
OJP on November 4, 2010 and June 10, 2011; however, Enough is
Enough refused to provide information regarding program sales, which
makes it impossible to assess the level of program income,
demonstrate that this income was used in proportion to the Federal
funds expended on the project, determine if this income was expended
prior to additional OJP drawdowns, or verify that this income benefited
DOJ initiatives.

This recommendation can be closed when OJP determines how much
program income, if any, has been generated and has ensured that
Enough is Enough accurately allocates these funds to the grants in
proportion to the amount of Federal funds contributed to their
production, reported this income on Federal Financial Reports, and
considered these funds as a factor in determining whether a Single
Audit is required.




                               90
